<html>
<title> - JUSTICE FOR SEXUAL ASSAULT VICTIMS: USING DNA EVIDENCE TO COMBAT CRIME</title>
<body><pre>[Senate Hearing 107-895]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-895

 JUSTICE FOR SEXUAL ASSAULT VICTIMS: USING DNA EVIDENCE TO COMBAT CRIME

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON CRIME AND DRUGS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 14, 2002

                               __________

                          Serial No. J-107-79

                               __________

         Printed for the use of the Committee on the Judiciary


86-042              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director
                                 ------                                

                    Subcommittee on Crime and Drugs

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PATRICK J. LEAHY, Vermont            CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
HERBERT KOHL, Wisconsin              MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
                 George Ellard, Majority Chief Counsel
                   Rita Lari, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware.......................................................     1
Cantwell, Hon. Maria, a U.S. Senator from the State of Washington     5
    prepared statement...........................................    55
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa, 
  prepared statement.............................................    71
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................     7

                               WITNESSES

Adams, Dwight E., Assistant Director, Laboratory Division, 
  Federal Bureau of Investigation, Washington, D.C...............    11
Clinton, Hon. Hillary Rodham, a U.S. Senator from the State of 
  New York.......................................................     9
Fairstein, Linda A., former Chief, Sex Crimes Prosecution Unit, 
  New York County District Attoney's Office, New York, New York..    28
Hart, Sarah V., Director, National Institute of Justice, 
  Department of Justice, Washington, D.C.........................    13
Holbrook, Debra S., Nurse and Certified Sexual Assault Examiner, 
  Nanticoke Memorial Hospital, Seaford, Delaware.................    34
Morgan, J. Tom, District Attorney, Stone Mountain Judicial 
  District, DeKalb County, Georgia and Vice President, National 
  District Attorneys Association, Decatur, Georgia...............    39
Narveson, Susan, President, American Society of Crime Laboratory 
  Directors, Phoenix, Arizona....................................    36
Smith, Debbie, Williamsburg, Virginia............................    24

                       SUBMISSIONS FOR THE RECORD

Adams, Dwight E., Assistant Director, Laboratory Division, 
  Federal Bureau of Investigation, Washington, D.C., statement...    48
Elster, Jeri, statment...........................................   111
Fairstein, Linda A., former Chief, Sex Crimes Prosecution Unit, 
  New York County District Attoney's Office, New York, New York, 
  statement......................................................    57
Hart, Sarah V., Director, National Institute of Justice, 
  Department of Justice, Washington, D.C., statement.............    77
Holbrook, Debra S., Nurse and Certified Sexual Assault Examiner, 
  Nanticoke Memorial Hospital, Seaford, Delaware, statement......    92
Morgan, J. Tom, District Attorney, Stone Mountain Judicial 
  District, DeKalb County, Georgia and Vice President, National 
  District Attorneys Association, Decatur, Georgia, statement....    94
Narveson, Susan, President, American Society of Crime Laboratory 
  Directors, Phoenix, Arizona, statement.........................   101
Rape, Abuse and Incest National Network, Scott Berkowitz, 
  President and Founder, Washington, D.C., statement and 
  attachment.....................................................   108
Smith, Debbie, Williamsburg, Virginia, statement.................   114

 
 JUSTICE FOR SEXUAL ASSAULT VICTIMS: USING DNA EVIDENCE TO COMBAT CRIME

                              ----------                              


                         TUESDAY, MAY 14, 2002

                                       U.S. Senate,
                           Subcommittee on Crime and Drugs,
                                 Committee on the Judiciary
                                                   Washington, D.C.
    The Committee met, Pursuant to notice, at 10:40 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (Chairman of the Subcommittee) presiding.
    Present: Senators Biden, Cantwell, Schumer, and Clinton (ex 
officio).

OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR., A U.S. SENATOR 
                   FROM THE STATE OF DELWARE

    Chairman Biden. The hearing will come to order. I thank my 
colleague from Washington for being here this morning and for 
her leadership in this area and for keeping our eye on the 
ball. I guess I have been here so long, it is strange to say, 
but you are an incredibly welcome addition. I know you are an 
old-timer now. You have been here for more than a year, but it 
is great to have you here.
    I want to point out that 99.9 percent--that number, I want 
everybody to sort of keep in mind as we go through this hearing 
today, 99.9 percent--99.9 percent, that is how accurate DNA 
evidence is. One in 30 billion are likely to be wrong--one in 
30 billion. Those are the odds that someone else committed a 
crime and the suspect's DNA matches evidence at the crime 
scene. Twenty or 30 years, as long as 30 years, depending on 
how it is kept and stored, is how long DNA evidence from a 
crime scene can last and be accurate. The FBI tells us since 
1998, the national DNA data base has helped put away violent 
criminals in 4,179 investigations in 32 States.
    I might add, by the way, the focus of today's hearing and 
some of the witnesses were back in the old days with me with 
the Violence Against Women Act when we started raising these 
issues and funding these so-called rape kits and trying to get 
people to pay more attention to violence against women. One of 
the things that we should point out, today, we are going to 
focus, and I say this for the press here, on catching the bad 
guy. But I want to make it clear to you--and that is the total 
focus of today's hearing and how we do that and how we better 
equip law enforcement to do that accurately.
    But just those of you who think this is something about 
civil liberties and we are somehow doing something that is 
going to raise people's concerns, I want to point out to you 
that DNA is a two-way street. Senator Specter and I also have a 
bill relating to DNA that can free convicted people who are not 
guilty of crime. DNA evidence is a two-way street. DNA evidence 
can go out there and see to it that people wrongly convicted of 
a crime, which happens not infrequently in our system, wrongly 
convicted of crime go free. So this is not a one-way tool, it 
is a two-way tool. But today, I want to focus on it one way.
    When we started this process back in 1986 when I wrote the 
Violence Against Women Act, in trying to figure out how could 
we use the tools available to us through science and forensic 
sciences in particular to see to it that we cut down on the 
violence against women and captured those who perpetrated that 
violence in the case where it is a stranger, which is about 30 
percent of the time in rape.
    We funded through the Violence Against Women Act an awful 
lot of programs, one of which was we found that when at a crime 
scene, particularly for rape, law enforcement officers were not 
as fastidious in paying attention to gathering evidence, when a 
woman who is a victim of rape or assault went to a hospital, 
there was not nearly as much attention paid by nurses and/or 
doctors to whether or not the woman was a victim of an assault, 
and when it was clear that a woman had alleged that she had 
been raped, there was not nearly enough attention paid to the 
collection of the important data and evidence that would be 
available and convincing in a trial when, in fact, and if, in 
fact, a defendant was arrested for that case.
    As a matter of fact--I am going to be parochial for a 
minute--one of our witnesses I will introduce later in the 
second panel is a nurse from Delaware. We had spent some time 
after we passed that Act, my going back to my little State--it 
is small enough to be able to do this--and gathering up, 
literally, all the doctors--not all the doctors, but all the 
doctors who headed the emergency rooms in my entire State. We 
got them all together and said, hey, look, under this law now 
we have passed, this Violence Against Women Act, there is a lot 
of money available out there that we can get you, but we expect 
you to do some things.
    And we got volunteers to come in and sit in front of and 
outside of emergency rooms so when a woman came in who said, 
``No, I ran into a door,'' or was raped but did not want 
anybody to know she was raped, there was someone to walk in and 
hold her hand and say, ``Look, do not worry. We can not only 
get you medical help here, but we can get you a police officer 
to show up here in 10 minutes. We can get a judge to get you a 
stay-away order. We can make sure,'' and so on and so forth, 
very practical things, very practical, basic things.
    And the irony is, we have come a long way and we have done 
a lot, but we have not connected the last dot. We now have, as 
one of the witnesses from Delaware will point out, a nurse who 
heads up an organization called SANE, which makes sure we 
fastidiously collect this data, we find out that an awful lot 
of the data is just sitting around. We are not connecting the 
dots. We are not connecting the data base we have of a criminal 
convicted population with the data base we have of women who 
have been the victims of rape and other crimes, because it is 
not just rape. DNA deals with other crimes, as well. So how do 
we do that?
    For instance, in Florida, Kelly Green was brutally attacked 
and raped in the laundry room of her apartment complex. Because 
of the lack of funds for a rape kit, it sat on the shelf for 3 
years until a persistent detective had it analyzed. The 
evidence matched the profile of a man already incarcerated for 
beating and raping a woman 6 weeks before Kelly. He was charged 
and convicted in Kelly's assault. That is not important just 
because of Kelly, just getting the bad guy. This is a guy who, 
once he was released, could be out there doing the same thing 
again. This is a guy who would do the same thing again.
    In light of the past successes and the future potential for 
DNA evidence, reports about the backlog of untested rape kits 
and other crime scenes waiting on shelves in police warehouses 
is simply unacceptable.
    I have called this hearing today to hear firsthand how DNA 
evidence is shelved and how it could solve so-called cold 
cases. Today, I am introducing legislation, the DNA Sexual 
Assault Justice Act of 2002, to connect the final dot between 
the Violence Against Women Act and this, to strengthen the 
existing Federal DNA regime as an effective crime-fighting 
tool, and I hope to use today's hearings to get answers to five 
basic questions.
    First, exactly how bad is the backlog of untested rape kits 
nationwide? In 1999, government reports found that over 180,000 
rape kits were sitting untested on the storage shelves of 
police departments and laboratories all across the country, 
while recent press reports estimate that number today is 
approaching 500,000 untested rape kits. Now, do you get this, 
500,000 untested rape kits. That is 500,000 women who have 
alleged they have been raped. Let us get the proportion of this 
crime, 500,000, not a year, but 500,000. I am told there is no 
current accurate number of what the backlog is. Behind every 
single one of those rape kits is a victim who deserves 
recognition and justice.
    Accordingly, my legislation would require the Attorney 
General to survey every single law enforcement agency in the 
country to assess the backlog of rape kits waiting to undergo 
DNA testing. It sounds like a big job, and we did that in a 
number of areas in the Violence Against Women Act. It is not 
that hard to do.
    Second, how can existing Federal laws be strengthened to 
make sure that State crime labs have the funds for the critical 
DNA analysis needed to solve sexual assault cases? To fight 
crime most effectively, we must both test rape kits and enter 
convicted offenders' DNA samples into DNA data bases.
    My bill would, one, increase current funding levels to both 
test rape kits and to process and upload offender samples and 
allow local governments to apply directly to the Justice 
Department for these grants, just like they do on the Biden 
crime bill for cops.
    Third, what assistance does the FBI need to keep up with 
the crushing number of DNA samples which need to be tested or 
stored in a national data base? I am told that the current 
national data base, known as the Combined DNA Index, CODIS, is 
nearing capacity of convicted offenders whose DNA samples are 
stored.
    My bill would provide funds to the FBI, one, to upgrade the 
national DNA computer data base to handle the huge projections 
of samples, and two, to process and upload convicted offenders' 
DNA samples into the data base.
    Fourthly, the bill would provide additional tools--I want 
to determine what additional tools are needed to treat victims 
of sexual assault. One group that understands the importance of 
gathering credible DNA evidence are forensic Sexual Assault 
Nurse Examiners who are sensitive to the trauma of this 
horrible crime and make sure that patients are not re-
victimized in the aftermath. Likewise, we have to ensure that 
law enforcement officials are well trained in how to collect 
and preserve DNA from the crime scene.
    Thus, my bill creates a new grant program, one, to carry 
out sexual assault examiner programs and training; two, to 
acquire or improve forensic equipment; three, to train law 
enforcement personnel in the handling of sexual assault cases 
and the collection and use of DNA samples for use as forensic 
evidence. This is not reinventing the wheel. We have done this 
in the Violence Against Women Act and the crime bill in other 
areas. This is all doable.
    Fifth, what can be done to ensure that sexual assault 
offenders who cannot be identified by their victim are 
nevertheless brought to justice? Profound injustice is done to 
rape victims when delayed DNA testing leads to a cold hit after 
the statute of limitations has expired. Do you know what I mean 
by a cold hit? That means after the statute of limitations is 
expired for the rape, it finds out there is a connection. We 
hit that data base and there is a connection. The DNA from the 
rape kit acquired at the scene of the crime matches with a 
defendant who is in the data base, or a convicted felon, I 
should say--they are the only ones in the data base--and it is 
too late. The statute of limitations has run.
    For example, Jeri Elster was brutally raped in her 
California home, and for years, the police were unable to solve 
the crime. Seven years later, DNA from the rape matched the man 
in jail for an unrelated crime. Yet, the rapist was never 
charged, convicted, or sentenced because the California statute 
of limitations had expired the previous year.
    My bill would change the current law to authorize Federal 
John Doe DNA indictments. Let me explain what that means. This 
will permit Federal prosecutors to issue an indictment 
identifying an unknown defendant by his DNA profile within the 
5-year statute of limitations, which is the Federal statute. 
Once outstanding, the DNA indictment would permit prosecution 
at any time once there was a DNA cold hit through the national 
DNA data base.
    I want to make it clear now. We do not control State law. 
There are very few Federal rape cases. This is not going to 
solve the problem, but I want to set a standard, a national 
standard to which States may consider to repair, and that is by 
allowing for there to be the statute not tolling once the 
indictment is brought against the DNA identified base.
    So let us take a look at all of these issues this morning, 
faster DNA testing, better treatment for rape victims, more 
creative uses of sexual assault indictments, and how to make 
sure that the State crime labs are participating in the 
national DNA data base. The technology exists to bring solace 
to countless victims and to make our streets safer in the 
process. Our panel of experts will help explain the proper 
role, and I look forward to hearing their testimony.
    Senator Cantwell is here, and although it is usually our 
practice to go to Republicans, they are probably voting right 
now. Why don't I yield to the Senator in the last few minutes 
if she would like to make an opening comment. Then we are going 
to recess for a minute, go vote, because all those buzzers you 
hear means there are about 3 minutes left in the vote, and we 
will come back, and if Senator Grassley is here, he will make a 
statement, and then we will go to the witnesses.

STATEMENT OF HON. MARIA CANTWELL, A U.S. SENATOR FROM THE STATE 
                         OF WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I appreciate 
being recognized. You have certainly been a leader on the issue 
of violence against women and I applaud you for that leadership 
and also for having a hearing today and introducing 
legislation. I look forward to working with you on this issue.
    I want to also thank you for inviting Debbie Smith to 
testify. She will be on the second panel. As you know, she has 
been active in testifying on this issue both in the House and 
making this issue known around our country. The Debbie Smith 
Act will pay for DNA testing of 20,000 rape kits that are 
currently gathering dust in police offices and labs all around 
the country and will help us get more rapists caught and 
convicted.
    In my own State of Washington, DNA testing was used and 
matched against a data base against the convicted I-5 rapist, 
Jeffrey Paul McKechesnie, and that was critical for us in our 
State. Washington State recently passed a law requiring that 
all felons provide DNA samples, but like many other States, we 
need to have the funding to make sure that those samples are 
then checked against a data base.
    So, Mr. Chairman, Senator Clinton, who I believe is going 
to be here a little bit later, has also introduced legislation 
and is strongly committed to seeing that the current lack of 
funding of DNA testing is addressed. She is also a cosponsor of 
the Debbie Smith Act and I have agreed to work with her on 
combining these bills to best address this issue.
    I want to thank her for being here and for her steadfast 
vigilance in making sure that this issue gets national 
attention, and I also want to thank her husband, who is a 
detective with the Williamsburg Police Department for his 
steadfastness in supporting his wife on this issue. Debbie 
Smith's experience is really testimony to the power of DNA 
evidence. It would have been impossible to solve a ``no 
suspect'' case like Debbie's without the use of DNA evidence. 
It took 6 years for the forensic evidence sample taken at the 
time of her rape case to be cross-checked against the Virginia 
data base of convicted felons, but when the comparison was 
made, her attacker was found and he was sentenced to two life 
terms plus 25 years.
    Debbie Smith has put her own experience with DNA testing to 
good use and having the courage to share her story has helped 
us realize that the next sexual assault victim could be our 
sister, our daughter, our wife, or our mother.
    I believe this is legislation that we need to get passed 
this year. According to the Department of Justice, a woman is 
raped every 2 minutes. One in three women will be sexually 
assaulted in her lifetime. In my home State of Washington, the 
number of sexual assault cases is even higher. According to the 
Washington State Office of Crime Victim Advocates, 38 percent 
of women in my State have been sexually assaulted.
    If women have the courage to come forward and report a 
sexual assault and submit to the physical examination and 
evidence gathering, we owe them the absolute guarantee that 
that information, at a minimum, will be analyzed and checked 
against a data base of known sexual offenders and violent 
offenders. That is what Debbie Smith and every woman who is 
sexually assaulted deserves to have done, and that is what I am 
determined to see accomplished this year.
    In order to do this, we need to provide funding that allows 
States to build a data base of convicted felons and provides 
for DNA testing in ``no suspect'' rape cases.
    Women who are raped also deserve to receive respectful 
treatment by people trained to collect and preserve this 
forensic information. That is what the Sexual Assault Nurse 
Examiner program, or SANE program, does. SANE nurses can make 
the difference to women. In 1995, a young woman in Olympia, 
Washington, was raped at gunpoint. She said that the SANE nurse 
who collected the DNA evidence after the assault made her feel 
at ease and more confident and comfortable. That was related to 
the case that I mentioned earlier. The data was entered into a 
data base and matched that of the convicted serial rapist, the 
I-5 rapist and this resulted in an additional conviction 
against him.
    Today, we will be hearing from one of our witnesses about 
the SANE program and its 200 operations nationwide, and because 
the SANE program largely operates without Federal funding, its 
expansion has been limited. Mr. Chairman, as you were pointing 
out, this is something that needs to be addressed in the 
legislation.
    So I look forward to working with you on this legislation 
and your commitment to see that the Debbie Smith legislation 
and people like Debbie Smith will have their day and making 
sure that more rape kits are tested and more rapists are put in 
jail. I thank you, Mr. Chairman, for allowing me an opening 
statement.
    [The prepared statement of Senator Cantwell appears as a 
submission for the record.]
    Chairman Biden. Thank you. I can say to you, Senator, both 
you and Senator Clinton and others who have similar 
legislation, I am confident we can have an amalgam of the 
legislation. I just want the broadest, most comprehensive bill. 
I do not want to keep coming back and keep doing this. I want 
to have something comprehensive enough that we answer all of 
the issues here that are able to be answered and we find the 
best single way to do this. I might make it clear, it is going 
to cost money, but it is money well spent.
    The time is out on the vote so we have got to take off for 
a moment. We will recess for 10 minutes. Our first panel when 
we come back will be Dr. Dwight E. Adams, Assistant Director of 
the Laboratory Division at the FBI in Washington, D.C., and the 
Honorable Sarah V. Hart, Director of the National Institute of 
Justice, Department of Justice here in Washington, D.C., and we 
will begin with them upon our return.
    We will now recess for approximately 10 minutes.
    [Recess.]
    Chairman Biden. The hearing will come to order.
    As you know, we have a tradition in the Senate where 
members of the committee are the ones that participate in the 
hearings, but we also have another tradition that has been long 
honored, that if there is a Senator who is not on the committee 
who has a keen interest in the subject matter, they are often 
by the chair invited to participate. The way it works is, we go 
through the regular committee order first and then move to that 
Senator who is not a member of the committee.
    The Senator who has joined us has an overwhelming interest 
in this issue. When, I might add, she was in her former 
incarnation, she--it is presumptuous of me to say this--along 
with her husband were overwhelming supporters of the Violence 
Against Women Act and it made my job a lot easier here to get 
that passed. Also, I might add that she has a particular 
interest since at least one of her cities has 16,000 of these 
rape kits sitting on a shelf in Queens.
    So I thank her for her leadership and I see her colleague 
from New York is also here, the Senator who is a member of the 
committee and has worked very hard on all of these issues, as 
well, relating to violence against women, in this case, the 
issue before us. I welcome them both.
    This is the last bit of explanation I will give. The trade 
bill is on the floor. Senator Grassley is a member of the 
Finance Committee, as a matter of fact, the ranking member of 
that committee, and so he is required to be there, as are 
several others, but I am sure we will have people coming in and 
out. Please do not, for those of you who are new to this 
committee, it is not a sign of disrespect. It is a sign of the 
fact that we are all on two or more committees, but this is 
extremely important.
    We will begin now with Dr. Adams. Excuse me. This is not 
usually the way we do it, but the Senator from New York has an 
opening statement he would like to make and he is welcome to do 
it.

 STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Schumer. I appreciate it, Senator, and I appreciate 
your hard work on this issue, my colleague, Senator Clinton's. 
I apologize to the witnesses. We have two or three hearings 
going on this morning, so I appreciate the opportunity to make 
an opening statement.
    I want to salute the Chairman of the Crime Subcommittee for 
the great work he has done. We have worked together on these 
kinds of issues for a very, very long time, the Violence 
Against Women Act which he carried and really led the charge in 
the Senate and I carried in the House, and I want to thank him 
for being here.
    I want to thank my colleague, Senator Clinton, for her 
strong interest in this issue, which long preceded her being in 
the Senate, and now she is here in the Senate, able to help 
join in the fight to deal with this sorry issue.
    I also want to thank you, particularly. Dr. Adams, thanks 
for your work, but I want to thank Ms. Smith for being here 
today and for your courage, as well.
    There are many challenges facing us in bringing justice to 
sexual assault victims and many of them can seem very daunting. 
From my time in the Senate and in the House, we have seen 
progress. In the 106th Congress, I introduced legislation with 
some others to help reduce the backlog of casework files 
awaiting DNA analysis, and later in the session, and I know, 
Joe, you were helpful in this, too, Congress authorized $50 
million over 5 years to help States pay for DNA testing of rape 
kits which hold the biological evidence collected from rape 
victims after the attack. I was even happier when President 
Clinton signed our law that authorized $125 million in new 
Federal funding over 4 years to test thousands of rape kits.
    In New York, we, of course, have known the problem of 
having the rape kits sitting on the shelves. Well, imagine if 
the police apprehended a suspect, took fingerprints, and then 
threw the prints in a drawer, never to see the light of day. We 
would be appalled. And that is exactly what was happening and 
still is, so we need all the help we can get to continue the 
funding to make sure that these rape kits are used.
    For years now, rape victims arrived at hospitals after 
being assaulted, then undergone the further trauma of physical 
exams. The exams almost always result in the collection of 
biological evidence subject to DNA testing, and then comparing 
it to local and national DNA data bases in order to identify 
the attackers. But despite the fact that women have endured 
invasive physical exams after going through the trauma of rape 
itself, and despite our ability to use the evidence to catch 
rapists, which is just a blessing, there has not been enough 
money to conduct the testing.
    So thousands of rape kits, we know, languish in police 
storage facilities across America without being tested, and 
that is a scandal. Every one of those rape kits stands for a 
person whose life has been turned inside out by a horrendous 
and violent crime. Every one of those kits represents a rapist 
who still might be walking the streets, and we know with rape, 
recidivism is extremely high, as it is with all sexual 
predation.
    The new Federal money that has enabled States to start 
clearing the rape kit backlog and begin giving these cases the 
attention they so desperately need has to continue. Victims may 
be able to rest a little easier at night. Rapists will not, 
knowing that we are finally using the best tools.
    Now, I would just like to bring to the attention--I know 
you are aware of this, Senator Biden. I know you are putting 
together comprehensive legislation, so one other issue. Last 
fall, along with Senator DeWine, I introduced the SAFE Act, 
otherwise known as the Sexual Assault Forensic Examiners Act. 
Our bill aims to vastly improve the care of victims of sexual 
assault and help to see that their attackers end up behind 
bars.
    Over 300,000 women are sexually assaulted each year, and 
unlike all other violent crimes, rape is not declining in 
frequency. So we owe it to her to do everything in our power to 
put the assailants behind bars, and we also owe her prompt and 
caring treatment when she has the courage to report a crime. We 
all know the problem--we have worked on this long and hard--to 
get victims to come forward. Yet, all too often, we fail in 
these basic obligations.
    Most rape victims who seek treatment go to hospital 
emergency rooms. They often wait for hours in public waiting 
rooms. Many leave the hospital altogether rather than endure 
extended delay, decreasing the likelihood that the offense will 
ever be reported or prosecuted. And once victims are finally 
attended to, most of them are treated by a series of naturally 
rushed emergency nurses, doctors, and lab technicians, given 
the shortages we face in health care, and they lack specialized 
training in the particular physical and psychological care rape 
victims need.
    Emergency room nurses and doctors all too often have little 
training in collecting, correctly handling, and preserving 
forensic evidence from rape victims, and moreover, many 
hospitals lack the latest forensic tools, such as the dye that 
reveals microscopic scratches, and colposcopes, which detect 
and photograph otherwise invisible pelvic injuries. Finally, 
emergency room personnel are sometimes reluctant to cooperate 
with police and prosecutors in sexual assault cases, knowing 
that this involves time consuming and difficult interviews, 
witness preparation, et cetera.
    Well, the SAFE program has solved all of this, and SAFE 
programs dramatically improve the situation. SAFE examiners are 
specially trained in the latest techniques of forensic evidence 
gathering and cooperate fully with police and prosecutors, and 
their specialized training and experience makes them better 
witnesses in court. So when defendants claim consent and 
physical evidence of force, which can be difficult to uncover, 
the SAFE program helps make sure that is preserved.
    I know that you are concerned about this, because our 
staffs have talked, and I know you are considering a broad-
based bill, and I would just hope that a SAFE program, such as 
the one that Senator DeWine and I have--I know you are eager to 
put this in, but I hope it goes into the bill, as well.
    I want to thank you, Senator, for your hard work on this, 
again, my colleague for an issue that concerns us very much in 
New York, and the witnesses for their work in this area, and I 
apologize.
    Chairman Biden. No, no, no, there is no need to apologize. 
The objective here is to have the most comprehensive and 
thorough piece of legislation we can.
    Since we have done this, I yield to Senator Clinton if she 
wants to make an opening statement.

 STATEMENT OF HON. HILLARY RODHAM CLINTON, A U.S. SENATOR FROM 
                     THE STATE OF NEW YORK

    Senator Clinton. Mr. Chairman, I want to thank you for your 
leadership, which goes back so many years. We have made so many 
steps forward in fighting crime because of you and your 
commitment and your passion.
    I also want to thank all of the witnesses who are here 
today, especially Debbie Smith. I thank you for coming forward 
and being part of this effort to, once and for all, make clear 
that sexual assault is going to be given every possible 
resource we need in order to combat it.
    I will also acknowledge my friend and a witness today, 
Linda Fairstein, who has really pioneered the work against sex 
crimes, as the former Chief of the Sex Crimes Prosecution Unit 
in New York County, Manhattan. Linda has really, I think, 
opened the door to the prosecution of these terrible crimes and 
I thank her for being here, as well.
    Mr. Chairman, I would just reinforce the need for a 
comprehensive bill. I know that our colleague, Senator 
Cantwell, has been working very diligently on what we are 
calling the Debbie Smith Act, I think very well named, to train 
Sexual Assault Nurse Examiners, law enforcement personnel, and 
first responders in handling sexual assault cases and for 
setting minimum standards for forensic evidence collection. 
That is something that Senator Schumer pointed out in his 
opening comments and it is so important, because once we do 
have a woman who comes forward and is willing to speak out 
against her rapist, we need to make sure that the evidence that 
she brings to that event in a police station, an emergency 
room, wherever it might be, is collected appropriately so that 
it can be used.
    And then, of course, we have got to clear this rape kit 
backlog, I mean, not only in order to bring to justice those 
rapists and sexual assault predators who can be captured, 
prosecuted, convicted, and imprisoned because of this evidence, 
but to prevent them from striking again. We can prevent crimes 
if we really get to work on this backlog. We have made some 
progress, but not nearly enough. It is, like Senator Schumer 
said, to have this kind of evidence available and not examine 
it and use it for prosecutions is like setting up a crime tip 
hotline and not have anybody answer the phone. It makes 
absolutely no sense. This is one area where we know what it 
takes to not only prosecute the guilty, but prevent them from 
ever striking again.
    I look forward to working with you and I thank you so much 
for your long-time work and for this hearing, Mr. Chairman.
    Chairman Biden. Well, thank you. You are not going to like 
what I am going to say, Senator Clinton, but the fact that you 
have taken on this issue has given it a vitality that, quite 
frankly, it would not otherwise have, because of your 
involvement. Because of your national and international stature 
on women's issues, it is a big deal, and for that, I thank you. 
I mean, you could have picked a lot of other things to focus 
on, and quite frankly, as they say, those who are baseball 
fans, you put some pace on the ball for us here and I thank 
you.
    Senator Clinton. Let us bring it home.
    Chairman Biden. By the way, we talk about rape kits. Just 
so, when we are talking about it, the audience wonders what it 
is. There is an actual kit that looks like this. This is the 
kit. On the outside, it has all the data. It has the victim's 
name, it has the hospital, the clinic, it has the date it is 
received, the laboratory numbers, and all the rest. So when we 
talk about a rape kit, that is what we are talking about, in 
case anybody wonders. We have been doing this so long, we get 
kind of caught up in the jargon and people wonder, what are we 
talking about?
    Our first two witnesses we have today are designed to give 
us some hard nuts and bolts information here. They share our 
view there is a need to do something, but let us find out from 
Dr. Adams and from Ms. Hart what we are talking about here and 
the value and the science behind some of this.
    Let me begin with you, Dr. Adams, if I may, and then go to 
you, Ms. Hart. The floor is yours.

 STATEMENT OF DWIGHT E. ADAMS, ASSISTANT DIRECTOR, LABORATORY 
  DIVISION, FEDERAL BUREAU OF INVESTIGATION, WASHINGTON, D.C.

    Mr. Adams. Thank you. Mr. Chairman and members of the 
Subcommittee, thank you for the opportunity to share our 
experiences with DNA and the FBI's Combined DNA Index System, 
otherwise known as CODIS.
    To date, CODIS has assisted in identifying a suspect or 
linking serial crimes in nearly 5,000 investigations. Each of 
you have probably read stories of CODIS hits happening in your 
local jurisdictions. One recent hit at the national level 
solved seven rapes committed over a 5-year period in three 
States, ranging from the West Coast to the East Coast. A 1998 
rape in California was initially linked to a 1995 rape 
committed in Phoenix, Arizona. The 1995 rape also was linked to 
three other rapes in Arizona. The California and the Arizona 
rapes were later linked to a rape in Florida by the National 
DNA Index System. Ultimately, it was linked to a convicted 
offender included in Florida's DNA data base.
    The interesting point about many of these hits is the 
information they provide about the offending population. First, 
they confirm that criminals are mobile. But they also provide 
us with insights that allow us to link seemingly different 
crimes.
    For example, in New York, one rape involved an elderly 
woman, the other, the rape of a 7-year-old, and yet DNA linked 
these two crimes together, linked two crimes that likely would 
not have been seen to have been committed by the same 
individual, according to investigators.
    We are here today to discuss issues that some could 
characterize as arising from being a victim of our own success. 
First, let me make it clear that the success of CODIS is 
largely attributable to the cooperative efforts of the criminal 
justice community, law enforcement, victims, Sexual Assault 
Nurse Examiners, prosecutors, and, of course, the crime 
laboratory personnel, Federal, State, and local crime 
laboratories.
    Second, I think that the success of CODIS is calling our 
attention to other areas that we need to address in order to 
make the most of DNA technology. One area highlighted by our 
early surveys of crime laboratories was the growing backlogs of 
convicted offender samples that had been collected by the 
States but were never analyzed. The Commission on the Future of 
DNA Evidence addressed the backlog issue immediately and 
recommended to the Attorney General that Federal funding be 
made available to assist the States in reducing their backlogs. 
The Attorney General requested funding for the analysis of 
these convicted offender samples and Congress responded 
favorably to these requests with the DNA Analysis Backlog 
Elimination Act of 2000.
    While the convicted offender backlog may be easier to 
quantify, it is also a moving target given the heightened 
legislative activity. Over the past couple of years, there have 
been hundreds of proposals introduced in States to expand the 
offenses covered by State DNA data bases. They begin with an 
incremental approach by phasing in the coverage of certain 
felony offenses. They then go to covering all felony offenses, 
and finally, to include persons arrested or at least indicted 
for certain offenses.
    While just a few years ago a handful of States covered all 
felony offenders, there are now 19 States with laws that 
authorize the collection of a DNA sample from all felons. Given 
this level of legislative activity, the reality----
    Chairman Biden. Doctor, State law authorizes this?
    Mr. Adams. Yes, that is right. Given this level of 
legislative activity, the reality is that new offender backlogs 
will continue to be created as States expand their existing 
data base laws.
    Hand-in-hand with the convicted offender backlog is the 
need to analyze all cases having DNA evidence, whether or not a 
suspect has been identified. This relates specifically to rape 
kits that laboratories have received, and more commonly, kits 
that law enforcement agencies have collected and stored but 
have never identified a suspect and have not submitted them to 
crime laboratories.
    We know that having data of convicted offenders alone in 
the national data base will not solve crimes, and we cannot 
ignore cases that have no suspects, typically sexual assault 
cases. We are particularly concerned about these types of 
cases, those without suspects, since these are precisely the 
cases that CODIS was originally designed to address and, 
hopefully, solve.
    Unlike the convicted offender samples, which are 
inventoried by crime laboratories, you cannot obtain the true 
scope of the rape kit backlog by going to crime laboratories 
alone. That number would only represent a small fraction of the 
total, since most of those rape kits are stored in evidence 
rooms or freezers of local police departments around the 
country.
    What we do know is that there are cases, ones for which law 
enforcement have no suspects and no leads, that can potentially 
be solved by CODIS. We also know that the forensic index in 
CODIS containing the crime scene evidence is complementary to 
the convicted offender index. We need to populate both of these 
indices in order to have a successful CODIS program.
    Our annual surveys of CODIS laboratories around the country 
seek to track the number of samples being collected and 
analyzed to ensure sufficient capacity for our CODIS program. A 
few years ago, we began to realize that the success of these 
DNA data bases translated in the need for greater capacity 
within CODIS. With the approval and support of Director Mueller 
and the Attorney General, the FBI is undertaking the redesign 
of CODIS to enhance the system's storage and searching 
capacities and to improve more immediate access to national 
searches.
    Efforts began several years ago to develop new matching 
algorithms, allowing these searches to be done in less than a 
second, allowing them to be done in real time, and that is 
paying off. We are now planning the integration of this new 
search engine into CODIS even now. The redesign will size CODIS 
to accommodate the estimated 50 million DNA profiles and permit 
searching of the national index as soon as the data are 
uploaded.
    Hardware and software maintenance costs in the 153 
laboratories around the country will also be reduced because of 
the redesign of CODIS. As laboratories work to increase their 
capacities and eliminate their convicted offender and casework 
backlogs and the FBI redesigns CODIS for these larger 
capacities, we must publicize the benefits of this technology 
to eliminate as well as incriminate suspects. Efforts to train 
law enforcement personnel in the proper procedures for 
collection and storage of DNA evidence must continue.
    As I mentioned in the beginning, the cooperative efforts of 
the criminal justice community are responsible for the success 
of CODIS. The issues that have arisen out of these successes, 
such as backlogs, lack of capacity, lack of personnel, these 
can all be resolved. To quote from a recent article by Anna 
Quinlan of Newsweek, she said the solution is more money and 
more people for DNA testing. She went on to say that DNA was 
more reliable than other forms of evidence. She said that the 
genetic fingerprint we humans leave everywhere in our wake is 
the best witness the criminal justice system has ever had.
    Mr. Chairman, I have a friend and his name is Bill 
Showalter. Bill Showalter lost his two granddaughters a few 
years ago. They were simply on their way home from school, but 
they were a victim of an abductor, of a rapist, and a murderer. 
Every time I see Bill Showalter, I am reminded that we have not 
solved that crime yet, and I ask myself a question each time I 
see Mr. Showalter. Are we doing everything we can to answer the 
question of who committed this crime? Quite frankly, the 153 
laboratories across this country that are doing DNA testing now 
are doing all they can with what they have, but we could do so 
much more, and these backlogs are an example of what more could 
be done with a larger capacity.
    In closing, Mr. Chairman, I would like to commend you for 
addressing these important issues. Your spearheading this act 
is commendable and, we believe, will enable the criminal 
justice system to use this new forensic tool to its fullest 
extent. Thank you very much.
    Chairman Biden. Thank you.
    [The prepared statement of Mr. Adams appears as a 
submission for the record.]
    Chairman Biden. Ms. Hart?

  STATEMENT OF SARAH V. HART, DIRECTOR, NATIONAL INSTITUTE OF 
     JUSTICE, U.S. DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Ms. Hart. Thank you. Thank you, Mr. Chairman, and thank 
you, members of the Subcommittee. As Director of the National 
Institute of Justice, I am very pleased to come here today and 
testify about this very, very important issue and I must echo 
many of the remarks that were said by my colleague, Dr. Adams, 
here today.
    With the strong support of Congress, the Department of 
Justice, through NIJ, has served as a leader in the national 
effort to maximize the benefits of DNA evidence. Over the past 
5 years, we have seen a national explosion in forensic DNA 
collection. All 50 States and the Federal Government now have 
laws requiring DNA collections from convicted offenders, and 
advances in DNA technology have led to more DNA tests in crime 
scene evidence.
    More DNA collected, however, means more DNA analyses. 
Today, there are literally hundreds of thousands of samples 
from crime scenes and from offenders that are awaiting 
analysis. The longer this evidence goes unanalyzed, the longer 
crimes go unsolved. And for the victims of crime, especially 
victims of the most violent crimes, justice delayed is truly 
justice denied.
    Use of DNA evidence holds great promise for the criminal 
justice system. It ensures prompt, reliable verdicts and often 
leads to guilty pleas. Those guilty pleas can spare fragile 
sexual assault victims and child victims the trauma of trial 
and save taxpayer dollars. Using DNA evidence promotes 
fairness, confidence, and certainty in the administration of 
our nation's laws.
    For this reason, this administration is fully committed to 
continuing efforts to enhance the use of DNA evidence. Attorney 
General Ashcroft personally authorized the transfer of $25 
million in asset forfeiture funds to NIJ for DNA backlog 
reduction. At the Attorney General's direction, the National 
Institute of Justice has convened a working group of over 25 
national DNA experts. These experts are making recommendations, 
both short-term and long-term, about how to get the greatest 
public safety benefit from this very, very promising 
technology.
    This strong support complements Congress's funding in this 
area. In fiscal years 2000 and 2001, approximately $37 million 
per year was made available to the States for DNA and other 
forensic support. In fiscal year 2002, approximately $80 
million was made available, in addition to the $25 million in 
asset forfeiture funds.
    NIJ has also sought to maximize the benefits of DNA 
evidence through a variety of programs. NIJ negotiated 
favorable testing rates for States through private vendors to 
increase the number of tests that could be performed with 
Federal dollars. NIJ also required States to analyze ``no 
suspect'' cases as part of a matching contribution requirement 
for Federal DNA funds.
    As a result, over 400,000 convicted offender samples and 
11,000 crime scene samples have been tested. So far, and 
although we are awaiting further information on this, we know 
of 900 hits based on this program.
    NIJ is also leading research to make DNA technology faster, 
cheaper, and better. One project which is currently in the 
prototype stage, and I am going to hold something up here and 
try not to cut myself with this, this is a DNA chip. It is a 
prototype. You cannot really see it here, but there are very, 
very narrow little lines on this. This is part of our effort to 
miniaturize today's instruments, to speed the analysis of DNA 
and alleviate the overcrowding in the public crime labs. What 
it means, if we can make these smaller, faster, better, we can 
do more DNA analysis with the limited funds we have available.
    NIJ also developed standard reference materials, which are 
kind of the gold standard of the DNA industry. These are used 
to test machines and make sure that we have integrity in the 
DNA analysis that is performed out in the field.
    In addition, we have worked very hard to make sure that 
information has gotten out to the field. We have a number of 
publications here today, but let me just hold up one for you. 
This is, ``What Every Law Enforcement Officer Should Know About 
DNA Evidence.'' This is the CD-ROM. We have a pamphlet. This is 
our most popular hit on our website. We also provide pamphlets 
to crime victims and people dealing with--and also for 
identification of victims of the World Trade Center so the 
victims' families understand how DNA technology can be used to 
identify those victims.
    Despite these remarkable advances, there are, however, some 
impediments to our ability to maximize the use of DNA evidence. 
There is, as Dr. Adams noted, a very serious backlog consisting 
of both convicted offender samples and crime scene samples. The 
backlog of crime scene samples is effectively increasing as 
States go back and reexamine old cases to see whether they can 
use DNA evidence to solve these old crimes.
    At the same time, we are having an increase in convicted 
offender samples. We have not only the large number of samples 
that have been collected but not yet tested, we have a lot of 
samples that are owed, samples that are required to be 
collected from convicted offenders by State laws where the 
samples have not yet been taken.
    In addition, States are continuing to amend their DNA 
collection statutes. For example, in Florida, when Florida 
added only one additional non-violent offense to its collection 
statute, this resulted in 40,000 additional samples in just 1 
year.
    In order to maximize the use of DNA evidence, we, frankly, 
need a very balanced approach. We need to be expanding our DNA 
data base first. Second, we need to have competent collection 
of crime scene evidence. And third, we need to have timely 
testing of that evidence that is collected. If any of those 
elements are missing, crimes that could be solved will not be 
solved.
    But there are also other issues that Congress may want to 
consider, and I know, Chairman Biden, that many of these are 
also contained in what you have just introduced and we look 
forward to working with you on these issues.
    Congress could consider encouraging States to expand their 
DNA collection statutes, and there are two particular ways that 
that could be done. Many States have DNA collection statutes 
that only apply to offenders convicted after a certain date. 
The problem with this is, Federal dollars may be being used to 
test convicted offenders as they are coming in the door of the 
prison. They may be there for a long period of time. But we are 
not testing the convicted offenders who are going out the back 
door because they were convicted prior to the effective date. 
Those are the first people we want in that----
    Chairman Biden. They are the ones we should be testing.
    Ms. Hart. Absolutely, Chairman. In addition, Congress may 
want to consider encouraging States to expand the offenses that 
are covered. The current trend is to move to an all-felons 
statute, and that is what a number of States are doing.
    Congress may also want to consider whether to permit DNA 
profiles that are lawfully collected under State law to be 
placed in the Federal data bank. If States, for example, 
authorize the collection of DNA samples from juveniles, 
adjudicated delinquents, of rape, or arrestees, Congress should 
consider whether to allow those profiles to be used to solve 
these very, very serious crimes.
    And finally, Congress should also consider, as you have 
suggested, Chairman Biden, extending the statute of limitations 
to permit prosecutions of sex offenders identified through DNA 
testing.
    This administration strongly supports increasing this 
nation's capacity to use DNA evidence. This technology holds 
such promise for solving and preventing some of our most 
serious crimes. Maximizing the use of DNA evidence, especially 
with crimes involving women, will continue to be a priority of 
this administration and we very much look forward to working 
with the committee on these very, very important issues. Thank 
you.
    Chairman Biden. I thank you very much.
    [The prepared statement of Ms. Hart appears as a submission 
for the record.]
    Chairman Biden. I worked for years with the Attorney 
General when he was here in the Senate. Although we had 
disagreements on some matters of philosophy, we worked very 
closely on this issue. I am confident that we will get strong 
support from the administration.
    I might add, by the way, what we have done is a side-by-
side comparison I would like the Justice Department to take a 
look at of the various major pieces of legislation relating to 
DNA, including the comprehensive bill that you referenced that 
I am introducing today. But Senator Cantwell has a very good 
act, Senator Clinton, Senator Torricelli, Senator Schumer. I 
think you will see that what we did is we basically 
incorporated all the elements that you have asked into it, but 
we would very much like to invite your constructive criticism, 
and I mean it sincerely. The Justice Department and 
particularly your outfit, Ms. Hart, have been an incredible 
resource to me for the past 20 years, so I mean it sincerely. 
Your constructive criticism would be very much appreciated.
    I hope to have another hearing if we get down to the 
details here as to exactly what the final legislation should 
look like, because I have no pride of authorship. I just want 
to have the pride that whatever we pass is all encompassing.
    Ms. Hart. We very much look forward to working with you.
    Chairman Biden. Now, what I did not do, and I want to take 
the time to do now, just to take a second, because I went to 
additional opening statements, I am going to give our audience 
a sense of who is before us.
    Dr. Adams, who has already testified, was recently 
appointed to head the FBI's Laboratory Division, whose career 
at the FBI makes him particularly well suited to walk us 
through, as he did, the process of collecting and analyzing DNA 
evidence. From 1987 to 1993, he served as a chief in the FBI's 
DNA Assault Unit and was the first FBI agent to ever testify in 
court on DNA evidence. Previously, he served on the research 
team that developed and validated DNA testing procedures that 
would withstand judicial scrutiny. In 1997, he became the 
Section Chief of the Forensic Science Research and Training 
Center, and then the Chief of the Scientific Analysis Section.
    Dr. Adams has served as a member of the national board for 
the Journal of Forensic Scientists, as editor of the Forensic 
Science Communications, and as a member of the DNA Advisory 
Board established by the DNA Identification Act of 1994, which 
was part of the larger legislation. He also served on Attorney 
General Reno's National Commission for the Future of DNA 
Evidence.
    Also, I want to mention a little bit about Ms. Hart. She is 
the Director of the National Institute of Justice at the Office 
of Justice Programs in the Department of Justice. From 1995 to 
2001, Ms. Hart served as chief counsel to the Pennsylvania 
Department of Corrections. Prior to that, she spent 16 years in 
the Philadelphia District Attorney's Office, where, I might 
add, there are more felonies prosecuted in 1 year in that 
office than the entire Federal system, do you hear me, in the 
entire Federal system in an entire year.
    Ms. Hart is a graduate of Rutgers Law School, but much more 
importantly, she received her Bachelor of Science degree in 
criminal justice from the University of Delaware.
    [Laughter.]
    Chairman Biden. She also went to Concord High School, which 
is in my neighborhood.
    [Laughter.]
    Chairman Biden. But at any rate, it is a pleasure to have 
you both here, and I think it is just important that people 
understand that we are not just having a little political 
discussion here. We have two bona fide experts before us.
    I would like to, if I may, start with you, and I will yield 
then to Senator Clinton. I suggest to Senator Clinton, since we 
are the only two here, do not hesitate to jump in--I mean it 
sincerely--if you want to expand on or move off of anything I 
add.
    Dr. Adams, I want to ask you about the two data bases for 
comparing DNA because I think it is important. We have got to 
have the pieces to know how to put this puzzle together.
    First of all, various States collect DNA evidence for 
varying crimes. There is not a standardized system out there 
where every State in the union for the same number of 
particular crimes attempt to collect DNA evidence, is that 
correct?
    Mr. Adams. If you are talking about convicted offenders----
    Chairman Biden. Convicted offenders.
    Mr. Adams. Yes, sir, that is correct. Right now, there are 
19 States which collect DNA samples from all felons, and there 
are approximately between ten and 15 States that are looking at 
legislation to increase it to all felons.
    Chairman Biden. Let me be more specific. In terms of the 
data bases for comparing DNA, the first is the combined DNA 
identification system, which I will call CODIS. C-O-D-I-S is 
the acronym, that we call it CODIS, correct?
    Mr. Adams. Yes, sir.
    Chairman Biden. I understand that 153 crime labs in 49 
States participate in this CODIS system.
    Mr. Adams. That is correct.
    Chairman Biden. A subset of those labs in those States then 
also participate in another system, the National DNA 
Identification System known as NDIS, correct?
    Mr. Adams. Yes, sir.
    Chairman Biden. Now, specifically, I am told that 127 
laboratories in 41 States participate in NDIS.
    Mr. Adams. That is right.
    Chairman Biden. I know you know all this. This is more for 
me because I am sort of pedantic about this. You have in CODIS 
153 labs in 49 States. Participating in NDIS, you have 127 
laboratories in 41 States, right?
    Mr. Adams. It is actually 40 States and one Federal 
laboratory, yes.
    Chairman Biden. And one Federal laboratory, OK. Now, it is 
my understanding that these two data bases, the State system of 
CODIS and the national system, NDIS, are not always connected 
to each other. It is similar to how the stand-alone computer in 
my home, just to show you how we are here in the Senate--the 
stand-alone computer in my home is not connected to the 
computers in my office, all of which are hooked into the same 
network such that they can talk to each other, but not my home 
computer. But my Senate computer is connected to the system 
where they can all talk to one another, but my home computer is 
not connected to that system.
    Under this analogy, a State crime lab which belongs to 
CODIS may or may not be able to talk to NDIS, the National DNA 
Data base, is that correct?
    Mr. Adams. Yes, sir. I think the end goal is to have all 
laboratories in all States a part of the national system. That 
is the end goal. Right now, there are 40 States that are a part 
of that national system.
    Chairman Biden. But again, to make sure we set this up to 
know what we are dealing with now so we know what we have to 
fix--we have got to know what is broken before we know what to 
fix. It is my understanding that the State laboratory is not 
part of NDIS. It can only use the CODIS software to compare DNA 
samples taken from a particular State.
    For example, if State A belongs to CODIS but not to NDIS, 
State A may check only the DNA samples from a rape kit against 
convicted felons in State A, not against the national data 
base, correct?
    Mr. Adams. That is correct.
    Chairman Biden. All right. Now, although I am told there 
are some exigent circumstance type exceptions which would 
permit non-NDIS States to avail themselves of the national data 
base, we will leave that aside for a moment.
    As mentioned above, the laboratories in 40 States 
contributed DNA profiles to the national, the NDIS system, 
correct?
    Mr. Adams. Yes, sir.
    Chairman Biden. Now, what is required for a State lab which 
is already a member of CODIS to become a member of NDIS, of the 
national DNA data base? And the reason that is important, I 
want to make it clear, the recently nailed, up in Philadelphia, 
the Rittenhouse rapist who raped a whole lot of people, 
murdered young woman, it turns out he was military. He got 
transferred, ended up out in San Diego, got arrested for 
similar activities out there. It turns out the DNA matched. 
Now, he has not been convicted, but the DNA matched.
    If the State were only part of CODIS, they would have never 
gotten themselves into this national data base, or maybe they 
found it out some other way, but they would not be able to. The 
Pennsylvania folks, if they were not part of NDIS, when they 
ran that DNA match through CODIS would not have picked up the 
California arrest, assuming California was in NDIS, correct?
    Mr. Adams. Yes, sir.
    Chairman Biden. Now, explain to me, if you would, how a 
State that is a member of CODIS becomes a member of NDIS.
    Mr. Adams. Yes, sir. There are currently ten States that 
are not a part of the national system yet. Eight of those 
States are well along the way to becoming a part of the 
national system. In fact, Delaware is scheduled for 
incorporation into the national system on May 20.
    The system is quite easy. First of all, the State sends the 
FBI a letter requesting to be a part of the national system. 
That State enters into a memorandum of understanding with the 
FBI and they agree to abide by the DNA Identification Act of 
1994, which involves recordkeeping procedures as well as 
quality control procedures. They follow a national DNA index 
system procedures manual and they undergo proficiency testing 
as well as audits in their laboratory and then agree to the 
reporting and confirmation of hits as a part of the manual. 
Once all of that is completed, then they are a part of the 
national system.
    Chairman Biden. So the bottom line is, if they want to get 
into the national system, they have to standardize the 
procedure consistent with what the Federal guidelines are 
relating to how and what and when all this data--how the data 
is collected, et cetera, so you are dealing from the same deck, 
everybody is dealing with the same national standard, is that 
correct?
    Mr. Adams. That is correct, yes, sir.
    Chairman Biden. And we do not mandate that to them. We say, 
you are just not in if you do not do it, right?
    Mr. Adams. Right. Yes, sir.
    Chairman Biden. Now, one of the things that--I am going to 
shift to you, Ms. Hart, if I may--you mentioned a number of 
things that we have to be aware of. One is the assessment, 
first of all, of the backlog, and we have all kinds of talk 
about how big the backlog is. As I said in my opening 
statement, some estimates are as much as 500,000. I have no 
idea whether that is correct or not, but do you think that in 
our legislation, the legislation I have introduced here, is it 
a doable goal to be able to assess each jurisdiction and get 
the number of backlogged cases? If we passed this law and it 
dropped onto your lap, what does it mean to you?
    Ms. Hart. I think at this point, it would be extremely 
difficult because the business of law enforcement in this 
country is very fragmented, and in order to get a true picture 
of this, you need to understand what crime scene samples are 
out there and what are awaiting testing. We have over 17,000 
different police departments in this country, and you can have 
evidence sitting on a shelf that the State lab has no idea that 
is out there.
    At this point, we know we have a major problem. We know we 
have a major backlog. The Attorney General has convened 
national experts to make recommendations about how best to 
address it. But to go out and count it would be an 
extraordinary expenditure that I, frankly, do not think would 
inform public policy the way it would need to.
    Senator Clinton. Could I ask, Mr. Chairman, Ms. Hart, then 
what would be the most effective means in your judgment to 
begin to tackle this backlog? We were making great progress in 
New York City, as you know. There was a concerted effort at the 
city level to put funds into clearing up the backlog, and then, 
of course, with September 11, that work had to stop. How would 
you best advise us to get at the backlog issue?
    Ms. Hart. I think there are a number of different 
approaches. I think that it requires a comprehensive approach 
that increases the capacity of the State and local governments 
to collect the evidence, to test it timely, and to match it, 
because, obviously, it requires both. If you just test the 
sample and you do not test the convicted offender, you do not 
match it. You have got to have testing on both ends of it.
    I think there are some things that Congress could do to 
increase the flexibility of the funding. One of the things that 
could be done, for example, is to permit us to provide the 
funding for ``no suspect'' cases not just to the States, but 
also to local governments.
    Senator Clinton. I love hearing that.
    Ms. Hart. One of the more troubling statistics that I heard 
was that Los Angeles had 3,000 unsolved homicides with physical 
evidence collected but not yet tested. How can we possibly not 
try to address that kind of serious crime, and we do not have 
that flexibility now.
    Senator Clinton. That would be----
    Chairman Biden. Our bill does do that. We provide you that 
flexibility.
    But let me ask you this question, because we should both 
keep doing this. The question that Senator Clinton asked you 
related to how to deal with the backlog. Maybe I have been 
doing this too long, but one of the things in order--for 
example, to put this into perspective, and this will be the 
headline in my paper, but my bill costs almost $1 billion. That 
is how much it costs. I will go through it in a minute, but 
that is the total cost for a 4-year period, almost $1 billion. 
It goes far beyond just testing these existing kits.
    But my point is this. In order for us to attach a number to 
what we are going to ask the appropriators to appropriate, we 
have to have a relatively sound judgment as to what the extent 
of the backlog is. For example, if the backlog is, nationwide, 
1,000 cases, that is one thing, because we are talking $500 to 
$1,500--I want to get back to this in a minute--$500 to $1,500, 
and I want to talk about the discrepancy, to test one of these 
rape kits, for example, to get it in the data base. So that is 
a lot of money.
    So if we are talking about only 1,000 of these sitting on 
the shelf, that is one thing. If we are talking about 500,000 
of these sitting on a shelf, that is another thing, and I 
realize we are talking about a lot more than just a rape kit. 
We are talking about physical evidence that goes beyond what 
would be in this rape kit.
    So what I want to try to get a handle on and need some 
advice on, or we need some advice on, is how do we get a 
relatively accurate assessment, or do we just make an educated 
guess as to how much backlogged evidence there is sitting out 
there for us to get tested and put into the computer?
    Mr. Adams. Mr. Chairman, I would have to agree with Ms. 
Hart in her assessment that it is a difficult number to grab 
hold of, and the reason is it is a moving target. If we leave 
the sexual assault kits aside and look just at the convicted 
offender samples, we know right now that there are at least 
600,000 samples that have not been analyzed yet. However, 
States are ever increasing their offenses that they want to 
include. And so you may have a State like Virginia, which has 
already enacted legislation for 2003 which will begin to take 
samples from arrestees. What will that do to those numbers, 
then, of the backlogs?
    So when we are talking about the numbers of States that are 
increasing the offenses, we are talking about a moving target. 
We already know where it is right now, but we know it is going 
to be greater even next year.
    Chairman Biden. And I think that is a really important 
point to make here. It seems to me that although we hope we are 
going to be able to spearhead a major effort on this, it seems 
to me there is some State responsibility. When States pass 
these laws to collect this evidence, I find it interesting. 
Some of my most conservative friends love to pass these laws, 
but then when it comes to paying for it, as to how it is going 
to do anything other than just sit there in a hole, never 
tested, I mean, there is not much value if we do not have it 
tested, if we do not have it in the data base.
    Senator Clinton. And, you know, the irony, Joe, is that the 
New York City medical examiner tells us that the costs for 
testing the rape kits come down the larger numbers that you 
test. It becomes, like many other things, an economy of scale, 
that you get some good cost-effective results because you have 
got an operation going that has qualified people who know how 
to keep quality control measures and the economics work out 
better. So it is kind of a chicken-and-an-egg issue. We need to 
get enough capacity out there to be able to do this job, and 
the more capacity we have, the cheaper it will become to 
actually process the evidence.
    Mr. Adams. Mr. Chairman, I would like to point out one 
thing that I found very interesting. Last week, I attended an 
advisory board committee for the Royal Canadian Mounted Police. 
They are experiencing the very same difficulties with backlogs 
and they are looking at passing on those expenses to the 
provinces. But what the provinces are doing, they are taking 
those cases and only sending a few forward because of the 
expense. It is in their responsibility, not at the Federal 
level. So those very cases which CODIS would go to solve are 
being held back by the provinces because they do not want to 
pay for that expense.
    Chairman Biden. I am going to submit the entire legislation 
to both of you, if I may, and ask for your critical analysis, 
if you would. There is no urgency in terms of days, but within 
the next several weeks, if you get a chance to look at it. I 
have great respect for both of you and I truly, truly would 
like your input. We are making it available to the Justice 
Department, to the Attorney General, as well, but any input you 
have would be very, very much appreciated.
    Ms. Hart. I know that in my discussions with people at the 
Justice Department, there is a shared commitment to this.
    Chairman Biden. I agree.
    Ms. Hart. This is something that people truly care deeply 
about and the Justice Department, I know, is looking forward to 
working with you on this.
    Chairman Biden. If past is prologue, I drafted a crime bill 
back in 1985 and it took until 1994 to get it passed. The one 
thing that no one wanted to do, and I, as they say in the 
jargon, got beaten up constantly for it was--thank God, the 
cops helped me--was it cost a lot of money. It was $30 billion. 
The Biden Crime Act, which became the Clinton legislation that 
was finally signed by the President cost $30 billion over 5 
years. No one wanted to hear those numbers.
    But I think there is a little thing called truth in 
legislating, truth in legislating. For years and years, State 
legislature and the Federal Government decided to get tough on 
crime by upping the penalties but building no prisons. They 
decided they are going to get tough and add all these new 
crimes, but built no prisons, did not add any new cops. So I 
think we should just have a little bit of truth in advertising 
here. This is going to cost, to do anything effective over the 
next 4 years, a minimum, a minimum of a half-a-billion dollars, 
and probably close to $1 billion.
    So if we mean what we say, if we really care about this, 
then we will make the investment, just as we did in the Crime 
Control Act, which worked. With your help, we will make this 
even better legislation.
    I thank you both very, very much for being here. As you 
know from experience, we will be asking you to come back again 
as we refine this. But in the meantime, thank you for being 
here and thank you for your expertise and your commitment. Do 
either of you want to make a closing comment?
    Mr. Adams. No.
    Ms. Hart. No.
    Chairman Biden. Again, thank you both.
    We will now move to our second panel, and I would ask them 
to come forward as they are called. Our first witness will be 
Debbie Smith, a victim of sexual assault whose crime was solved 
through the use of DNA analysis. In 1989, Debbie was abducted 
from her home in Williamsburg, Virginia, and raped in the woods 
behind her house. For years afterwards, investigators were left 
without any clue as to the identity of her attacker, but after 
six-and-a-half years, a cold hit in the Richmond, Virginia DNA 
lab revealed his identity. After a lengthy trial, he was 
convicted and sentenced to life without parole. Since then, 
Debbie and her husband, Robert, a 23-year veteran of the 
Williamsburg Police Department, have worked tirelessly to 
educate the public on the use of DNA in sexual assaults.
    Debbie, I have been doing this for 29 years and I realize 
how difficult, no matter how many times you do this, I realize 
how difficult it is, and remember our deal. If any of us wander 
into any area you do not even want to talk about, you just nod, 
and I promise you, although I am reluctant to tell any Senator 
to be quiet, I will even do that to my two colleagues.
    Ms. Smith. Thank you.
    Chairman Biden. So the rules are set by you here, all 
right?
    Ms. Smith. OK.
    Chairman Biden. Our second witness will be an old friend 
who was deeply involved in the Violence Against Women Act and 
national legislation and we have been calling on Linda 
Fairstein. She spent 30 years in the Office of the New York 
County District Attorney, where she was the chief of the Sex 
Crimes Prosecution Unit. It is good to have you back, Linda. 
You have been a phenomenal resource for this committee over the 
years. In that position, she supervised the investigation and 
trial of every Manhattan case involving sexual assault, 
domestic violence, child abuse, and homicides arising from sex 
crimes.
    I am pleased to say, as I said, this is not the first time 
she has been here and given us her expertise, and as the old 
joke goes, she has forgotten more about this subject than most 
of us are going to learn. She is, without a doubt, the expert 
in the area of DNA evidence in sexual assault crimes. When we 
were in the process of drafting the Violence Against Women Act, 
she testified before the committee in 1990--she remembers how 
long it took this to happen--about violent crimes against 
women. Welcome back.
    Debra Holbrook is a registered nurse in the emergency room 
at the Nanticoke Hospital in Seaford, Delaware. She founded and 
now coordinates both the Sexual Assault Nurse Examiners program 
and the Domestic Violence and Forensic Nursing program, both of 
which serve as models for the State of Delaware. In addition to 
creating policies and procedures for medical forensic 
evaluation, she is directly responsible for staffing and 
training all sexual assault examiners. Ms. Holbrook travels 
around the country teaching other communities how to develop 
similar programs.
    Ms. Holbrook trained as a radiologist technician at Johns 
Hopkins and is an alumni of the Union Memorial Hospital of 
Nursing in Baltimore, Maryland. She serves on the National 
Panel of Experts for the Office of Victims' Crime. She was 
honored in 1999 as Woman of the Year in Delaware for her 
service to victims in our State, and I want to thank her for 
her service to me and keeping me straight on a lot of this and 
helping me.
    Our next witness is Susan D. Narveson. She is administrator 
of the Laboratory Services Bureau for the Phoenix Police 
Department. She also served as the President of the American 
Society for Crime Laboratory Directors and the vice chair of a 
consortium of forensic science organizations. She received her 
bachelor of science degree in chemistry in 1975 from Arizona 
State University and began her career in forensics with the 
Phoenix Police Department in 1979.
    In 1981, Ms. Narveson accepted a position with the Arizona 
Department of Public Safety, where she has worked for 17 years. 
In 1998, she accepted her current position at the Phoenix 
Police Department. Ms. Narveson has worked on several DNA 
projects, including the FBI Scientific Working Group on DNA 
Analysis Methods, the College of American Pathologists Forensic 
Identity Committee, and the FBI DNA Advisory Board.
    Last but not least is J. Tom Morgan. He is Vice President 
of the National District Attorneys Association and has been 
District Attorney for DeKalb County in Georgia since 1992. He 
joined that office in 1983 and a year later became the first 
prosecutor in Georgia to specialize in the prosecution of 
crimes against children. He has since become nationally 
renowned and a nationally renowned expert and has appeared on 
such programs as the ``Oprah Show,'' the ``Today'' show, CBS 
TV's ``48 Hours,'' CNN's ``Talkback Live,'' and last week, the 
State of Georgia eliminated the statute of limitations in cases 
where DNA evidence is used to identify an attacker and Mr. 
Morgan will be particularly well suited to speak to that issue 
and others we have today.
    With that, why do I not begin in the order that you have 
been called. Debbie, the floor is yours, and again, it is up to 
you.

       STATEMENT OF DEBBIE SMITH, WILLIAMSBURG, VIRGINIA

    Ms. Smith. Zero-three-zero-three-eighty nine. Ninety-three-
forty-two dash 00 through 9342-05. Numbers of identification, 
8905010, C89-1989. Human identification, 180907, 89-85-00-0234. 
Written and spoken without a particular face impressed on the 
mind, 228-15-3839, VA654195. Cold, impersonal, necessary number 
of human identification revealing personal information about a 
faceless individual. There had never been so many ways to 
identify me, and yet I had never felt so lost. I resented being 
referred to as a number. The numbers made it seem as I did not 
exist as a person. They were mechanical and unreal. But little 
did I know that it would be numbers, matching numbers, that 
would breathe air into my lungs and would allow me to truly 
live again.
    There is no way for you to understand how what is done in 
the DNA labs can mean the difference between life and death 
without taking you back to March 3, 1989. It is around 1 on a 
Friday afternoon. I am in my home in a nice neighborhood in the 
city of Williamsburg, Virginia, which, by the way, happens to 
be one of the safest cities in our country. My husband, a 
police lieutenant, is upstairs asleep after having been up for 
over 30 hours. How could I have possibly been any safer?
    In the midst of cleaning house and doing laundry, I 
realized that my clothes dryer was not working properly, so I 
stepped outside to check the dryer vent. When I returned, I 
decided to leave the back door unlocked, a door that always 
remains locked. I left it unlocked just enough for me to go in, 
retrieve the trash, and come back out. But before I could 
return, within moments, a stranger entered that door and nearly 
destroyed and definitely changed my life forever.
    This masked stranger forcibly took me out of my home in the 
middle of the afternoon to some woods behind my home, where he 
blindfolded, robbed, and repeatedly raped me. The sound of his 
voice still rings in my ears at times. ``Remember, I know where 
you live and I will return and I will kill you if you tell 
anyone.''
    As soon as I was set free, I ran upstairs to my sleeping 
husband, waking him with the words, ``He got me, Rob. He got 
me.'' I begged him not to call the police. I pleaded with him 
because I feared this man would keep his promise to return and 
kill me. But the police officer and my husband knew that we 
could not allow this crime to go unreported. He also convinced 
me of the importance of going to the hospital because he knew 
that we may need the evidence that would be collected with the 
rape kit. All I wanted to do is to take a shower. I wanted to 
try to wash it all away.
    For the first time in my life, I could not find a reason to 
want to live. The love of my family and friends were not enough 
anymore because they could not erase the memories and they 
could not take away the pain. Even my faith in God seemed to be 
failing me.
    There is no escaping the pain. There was no escaping the 
fear. Fear will not be satisfied until it has taken over your 
mind and body, just as a cancerous tumor does. It cripples like 
arthritis, making every movement unbearable until finally it is 
just no longer worth the pain. You become paralyzed, feeling 
helpless and trapped. It was always there. It was there in my 
waking hours as well as in my dreams. On many occasions, my 
husband would be awakened in the middle of the night to the 
sound of the blood-curdling screams from my nightmares.
    It was at this point that I began to realize that I could 
not and I absolutely would not live this way. Death seemed to 
be the only alternative, the only answer that I could come up 
with that would end the horrible nightmare that I was living. 
In death, there would be peace and there would be quiet. I 
would no longer have to hear his voice in my ears or feel his 
arm around my neck or see his face before my eyes. My mind 
could rest.
    Over and over, I planned this suicide in my head. But there 
was one problem that had no solution, and that was my family, 
my husband and my two children. Who would find me? Would they 
live in guilt, feeling that they somehow had failed me? What 
would this do to them? I thank God still today that my love for 
them was stronger than my need to rid myself of this constant 
torment. I finally grabbed onto this one thread and it became 
my reason to live.
    One of the most frequent comments that I heard after I was 
attacked was, ``At least you are alive,'' but I can tell you 
still today that while I was alive physically, inside, I had 
died. I cursed my attacker for leaving me alive, to live with 
the pain. I did not know that relief from my pain sat on a 
shelf just waiting for the manpower and the funds to test my 
attacker's DNA sample and place it in the data bank.
    Although this intruder never laid a physical hand on anyone 
else in my family, he left each one of us a victim when he left 
that day. He touched emotions in us that we had never known. We 
saw the rage in the eyes of my son and fear kept my daughter 
from going from our own porch to the driveway after dark, and 
each of us, especially my husband, felt the awful pain of 
guilt. Our home, which was always filled with love and 
laughter, had now just become a house full of bitterness, 
anger, fear, and guilt. But yet, our answers still sat on that 
shelf, waiting to be processed.
    Every person that touched my life or my family's life felt 
the effect of this crime. They, too, felt invaded and 
vulnerable. I could see the pain in their eyes because I was a 
constant reminder that rape can truly happen to anyone, 
anywhere. They were angry for me, and yet they felt helpless 
because there was nothing they could do. Our minds and bodies 
ached for understanding, and yet there was none to be found.
    I waited daily to hear the news that they had found this 
man who had changed our lives so drastically, hearing his words 
over and over again in my head, ``I know where you live and I 
will come back and I will kill you.'' Our help remained on the 
shelf, still in a box, locked in a room with thousands of 
offender DNA samples. It sat, just waiting.
    I craved peace of mind and I did everything I could think 
of to attain it. An alarm system was installed in our home, 
including panic buttons throughout the house, as well as one 
that I could wear around my neck. A privacy fence was put 
around our backyard and motion detectors were installed. At one 
point, I even took to carrying a gun. My peace of mind still 
sat on the shelf, not enough money, not enough time.
    There just did not seem any way to attain this peace and 
rest that my mind and body craved for so long. I would suffer 
daily with the memory of a man who was in my life for such a 
short span of time and he may never have to pay for his crime, 
but I was going to have to pay for it forever. I can tell you 
that it is only by the grace of God that I am here today, 
because for six-and-a-half years, I simply existed, trying to 
go on and live a normal life.
    VA122015Y, 01-14-91, more numbers, 91-17682, 07-24-95. But 
these numbers bring with them a life-giving force and a renewed 
hope, 4183, 07-26-95. As George Li sat at his computer in the 
Virginia Division of Forensic Science on July 24, 1995, on what 
probably seemed to him just another normal day at the lab, he 
had no way of knowing what effect his work that day would have 
on my life and the lives of those around me.
    On this day, Mr. Li entered a prisoner's blood sample into 
the computer and it automatically began its cross check against 
previously entered samples. To his joy and surprise, he 
received a cold hit, something fairly rare at that time. This 
information was passed on to the Williamsburg Police 
Department. They, in turn, passed the information on to the 
shift lieutenant working that day, who happened to be my 
husband.
    On that day, July 26, 1995, my husband walked into our 
living room and handed me the composite that he had carried 
with him ever since the incident and he told me we were not 
going to need it anymore, that we could throw it away. Not only 
had they identified my rapist, but he was already in prison for 
another crime and he was put there 6 months after he had 
attacked me. Finally, they had unpacked the box that contained 
my release from fear. My freedom had been delivered.
    For the first time in six-and-a-half years, I could feel 
myself breathe. I felt validated. There was a real name and a 
real face to go with the nightmare that I was living. Everyone 
would know that I was telling the truth, that it was real. 
Finally, I could quit looking over my shoulder. No longer did I 
have to drive around in circles hoping that a neighbor would 
drive by so that I could get the courage to get out of my car 
to go into my own front door if no one else was home. 
Unfamiliar noises no longer left me panic-stricken. I no longer 
had to scan the faces in the crowd to see if he was following 
me, and suicide was no longer a consideration. Finally, my 
husband is grateful that I do not wake him up quite as often in 
the middle of the night with the ear-piercing screams. Within 
myself, the healing had begun and peace had come at last. 
Norman Jimmerson is off the streets for good. The jury gave 
Norman Jimmerson two life sentences plus 25 years with no 
chance of parole.
    In the few minutes that I have been talking to you, at 
least five women have been raped. Could we have prevented it? I 
believe we could have. Millions of dollars are spent every day 
for research on problem solving. Our research is done. We have 
the answers before us. We have no idea where Osama bin Laden is 
hiding, but we have within our grasp the means to find the 
terrorists that live among us today.
    There are literally thousands of inmate DNA samples waiting 
to be tested and entered into the data bank. Answers to the 
questions of a rape victim, her freedom and peace could be 
sitting on a shelf, and it breaks my heart when I go into labs 
and I see shelf after shelf filled with old, untested rape 
kits. Each kit represents a life in turmoil. We could have the 
answers to the questions that haunt her mind day and night, and 
yet they still sit and wait.
    And even with all of the rape kits that are sitting on 
those shelves, there really should be many more. But because 
the evidence collection is so devastating and humiliating, 
victims will not report this horrific crime. But we have the 
answer. Sexual Assault Nurse Examiners are trained to give one-
on-one care to rape victims, making her more willing to allow 
the evidence collection.
    With this bill, you can provide the solution for rape 
victims past, present, and future. By eliminating the backlog 
of untested rape kits and offender samples, we could be saving 
the life of a victim who can no longer hold onto that thread of 
hope that keeps her alive. We can offer hope to the rape victim 
that walks into that ER today. The average rapist commits eight 
to 12 rapes before he is caught. Identifying him now and making 
him pay for his crimes can prevent many from becoming victims. 
This bill can protect your wives, your daughters, and your 
sisters. How can we do any less?
    On behalf of myself and other rape victims past, present, 
and future, I thank you for caring enough to bring up a subject 
that not too many people want to talk about, and I thank you 
for allowing me to share my heart with you today.
    Chairman Biden. Debbie, or Ms. Smith, thank you for your 
courage in being here. I particularly thank you for pointing 
out the side of this tragedy that most people do not want to 
listen to. That is the underlying tragedy that goes along, as 
providers know, with all the victims of sexual abuse, and that 
is every single psychiatrist and psychologist who has testified 
in the years and years and years I have been holding hearings 
on this indicates that the only serious help available to 
victims is closure, of being able to close that chapter in 
their life.
    And the only way that occurs is with the identification, 
because you said something that you should never have had to 
say, but I hope everybody heard you say it. You said when your 
husband came in and said, we will not need this composite, to 
paraphrase you, you said that no one had to wonder anymore 
whether I had been telling the truth. That is an incredibly, 
incredibly, incredibly important thing for everybody to 
understand.
    And, by the way, for every one of you who come forward, two 
people never come forward, and the reason they do not is they 
do not want the stigma and they are fearful that the person 
will never be caught and they will, they will, they will be the 
ones thought to have made this up, and they get re-victimized 
and re-victimized and re-victimized and re-victimized.
    So your testimony today is more important than even you 
understand, I think, in how you revealed to this assembly and 
these cameras and to all our colleagues who will listen to this 
why this is so very, very, very important. I admire you. I 
admire your courage, and thank God you had a spouse who said, 
we are going to go be tested. We are going to have this 
degrading undertaking go a little further.
    [The prepared statement of Ms. Smith appears as a 
submission for the record.]
    Chairman Biden. I know Senator Clinton has another 
commitment, and maybe Senator Cantwell, I do not know. I am 
here for the duration, but I would be happy to yield to either 
of you.
    Senator Clinton. Mr. Chairman, I do. I have got to go to a 
meeting with the families of our police and Port Authority 
police who were lost on 9/11 and I apologize that I have to 
leave, but I want to thank Ms. Smith and I want to thank her 
husband, as well, for being here. I think it is really some of 
the most significant testimony I have heard in my time here so 
far and it will make a huge difference in the lives of so many 
other women.
    I thank you very much, Debbie, for being willing to come 
forward and share this and I apologize to the rest of the 
witnesses. I will look forward to reading your testimony.
    Thank you, Mr. Chairman.
    Chairman Biden. Thank you. While we are going to Linda, and 
she can confirm this better than anybody, you know, what 
happened to you, Debbie, is the rule, not the exception--during 
the day, in a nice neighborhood, in your home. Most people 
think it is somebody named ``habeas corpus'' crouching behind a 
garbage can in an alley of a big city ready to jump out and 
rape a woman. It is either somebody you know or it is in your 
own home, your own neighborhood, and is during the daytime. I 
am so glad you have been set free by this and I appreciate you 
being here.
    But now, we will go down the line here for the rest of the 
testimony, and then with the permission of the witnesses, the 
Senator from Washington and I will ask you some questions.
    Linda, welcome again.

   STATEMENT OF LINDA A. FAIRSTEIN, FORMER CHIEF, SEX CRIMES 
 PROSECUTION UNIT, NEW YORK COUNTY DISTRICT ATTORNEY'S OFFICE, 
                       NEW YORK, NEW YORK

    Ms. Fairstein. Thank you. You hardly need me after what you 
just heard, which really says it all.
    I thank you, Mr. Chairman. It is a pleasure to be back. You 
put this on the table, these issues on the table for the first 
time when you introduced violence against women legislation, 
and only by your efforts to keep it on the table have we made 
the progress we have. I looked at the young men and women 
behind you as Ms. Smith spoke this morning and not many people 
their age remember that for at least the first two decades of 
my involvement in this work, we could not get women with the 
courage to put their names and faces to this issue, your 
intelligent, beautiful face and your husband behind you, to 
come forward and let America know that it is our families and 
our friends who are the victims of these crimes, and that means 
the world to all of us who have worked on this.
    When I came to the practice of law, many States, including 
my own in New York, still mandated that the testimony of a rape 
victim be deemed incompetent as a matter of law unless 
corroborated by three specific forms of independent evidence. 
We fought to change that archaic impediment that prevented 
thousands of victims, even like you, Ms. Smith, from stepping 
foot in a courtroom for centuries, no matter how credible they 
had been, to create rape shield legislation, to eliminate the 
absurd requirement of earnest resistance which existed, and to 
lobby for predicate felony treatment for serial rapists whose 
recidivist tendencies account for the staggering volume of 
victimization all across America.
    For more than half my prosecutorial career, we devoted 
extraordinary human resources to encouraging survivors to trust 
the criminal justice system, which had excluded them for so 
long, and help them to triumph in courtrooms against great odds 
for the very first time.
    During my first 15 years in that position, I never dreamed 
there would be a time when science could relieve victims of the 
burden of identifying their assailants. I never imagined that 
what are now my three favorite letters of the alphabet, DNA, 
would be sequenced in such stunning fashion and accepted 
finally as a reliable scientific technique in every courtroom 
in America.
    DNA technology was first presented to me in 1986. It was 
deemed inadmissible in a high-profile homicide case I 
prosecuted and it has now completely revolutionized the 
criminal justice system. No prosecutor in America, indeed, no 
detective or police officer should investigate a sexual assault 
or homicide without using or considering the use of DNA 
evidence. The science, the methodology of DNA continues to 
evolve and to make more crime solutions possible.
    When first introduced as a forensic technique in the mid-
1980's, the RFLP process required evidentiary materials or 
stains that were at least the size of a quarter. The FBI was 
the only forensic lab in the country performing DNA tests. The 
turn-around time for a preliminary result was at least 6 
months. The cost was $5,000 per sample. That last fact meant 
that in gang rapes or cases with multiple victims and 
offenders, the cost was frequently greater than $50,000 per 
case.
    Now, with the use of the far more reliable and sturdy PCR 
technology, it is possible to achieve identifiable results in 
cases with samples too small to view with the naked eye. Some 
labs can test for nannograms of fluid. There are 1,500 
nannograms, may I remind you, in a single drop of blood. They 
can test for two nannograms. The cost is much lower, and my 
colleagues in the Manhattan DA's office get restless if they do 
not have a preliminary result within 24 to 48 hours of the time 
we submit the evidence for analysis.
    As Senator Biden said in his beginning statement, DNA's 
uses are twofold, to identify predators with certainty in cases 
in which identifications have been frequently impossible, but 
just as critically, if you worked for and learned from a 
prosecutor with the integrity of Bob Morgenthau, as I did, to 
exonerate suspects falsely accused.
    Chairman Biden. And, by the way, he has more integrity in 
his little finger than most people have in their whole body.
    Ms. Fairstein. No question about it.
    Chairman Biden. He is absolutely an incredible guy.
    Ms. Fairstein. He is. It is inconceivable to me that there 
are prosecutors or police anywhere in this country not properly 
trained to understand the potential of this science to solve 
crime. This bill and the Debbie Smith legislation mark superb 
efforts to use 21st century technology, DNA data banking, to 
solve 20th century crimes, to bring dusty, long-forgotten 
evidence out of the dark ages and into our growing data banks.
    We need the Federal resources, the money to do this work, 
and let me give you a punch list of reasons why. Under VAWA, we 
began to get funds from the Federal Government to train police 
and prosecutors. We are grateful for that money, but we need 
far greater amounts. The subject of evidence collection is 
indeed the heart of this matter, a topic of huge concern and 
way too simplistic, as you have mentioned, to think we are only 
talking about rape kits, as I will explain.
    Evidence collection begins with the training of law 
enforcement personnel to collect evidence at the actual crime 
scene. Most of us, and probably many of you in the room today, 
thought that meant looking for the obvious, blood, semen, 
saliva. I do not know how many of you realize that we can get 
DNA from the collar of every shirt or blouse we are wearing in 
this room, from the computer mouse that we hold in our offices, 
even from the doorknob that we turn to enter the room. Science 
has advanced so rapidly that even sloughed-off skin cells will 
yield genetic fingerprints, but cops need to know where and how 
to find that evidence.
    The collection process continues in the hospital emergency 
room. The single word that comes to mind when I talk about the 
treatment of rape survivors in emergency rooms across this 
country is uneven. There are no two hospitals in any city in 
this country which respond to these patients in exactly the 
same way. Evidence collection continues at police and medical 
examiners' labs.
    The training of serologists to do this work is expensive 
and time consuming. It changes with the methodology and with 
the machinery several times a year. There are not enough 
trained scientists to do the work that is waiting to be done 
and that will continue to be the case as techniques become even 
more refined and sophisticated. We have not even talked about 
mitochondrial DNA, a more sophisticated process, a much more 
difficult, time consuming one that is only now being accepted 
in courtrooms across this country.
    I would like to talk about some of the good news. There are 
communities and offices and labs that have made these issues 
work. Bob Morgenthau's unit, founded with two lawyers in 1974, 
now strong with 40 lawyers devoted to giving survivors a day in 
court, has done exceptional work.
    Three years ago, we started an experiment. We were tired of 
waiting for these cases to be taken off the police shelves. We 
assigned our two most senior lawyers to what we called and 
designated the Cold Case Unit. They literally went to the 
police department to look through files to find cases that were 
approaching the 5-year statute of limitations, when we would no 
longer be able to work with them, cases that had been unsolved 
but had the potential to be reexamined for the presence of 
genetic material.
    Our point was that from among the many thousands of cases 
sitting on police evidence shelves, we needed to prioritize 
those which could be prosecuted if DNA was successful in 
solving them. Senator Biden mentioned earlier at least 70 
percent of reported rapes occur between acquaintances. The 30 
percent or less that occur between people not known to each 
other, stranger rape cases, not that they are more important 
than acquaintance rape or domestic violence, but in these 
cases, the sole issue of identification is what is critical and 
DNA only can solve these cases.
    While New York City outsourced 1,600 untested rape cases in 
a stunning effort to eliminate the backlog that exists, as it 
does in so many cities and States across America, we did not 
want to wait for those results, so we picked the most difficult 
serial rapist and recidivist cases, some of the most life-
threatening criminals.
    One of the unsolved cases occurred in a lawyer's office on 
42nd Street, right in midtown Manhattan. The assailant tied up 
the lawyer and raped the cleaning lady who happened upon the 
scene, inserting the butt of his gun into her vagina, as well. 
All of her efforts and an intensive police manhunt failed to 
find him.
    Our cold case team pulled this case four-and-a-half years 
after it had been put on a police shelf and as the paperwork 
was thrown into a green trash bag to be discarded by the NYPD 
because of the statute of limitations. The DNA was developed, 
matched to a career criminal, rapist, and robber who was 
convicted again of this crime just 2 months ago. Imagine the 
reaction, if you can, when the detectives knocked on this 
woman's door and told her that her case had been solved and 
that science would confirm that fact whether or not she could 
ever recall her attacker's description.
    The trial court in this case, People v. Wendell Belle, held 
recently that the statute of limitations had been tolled and 
that we would be able to prosecute cases like Belle that were 
cold hits and go beyond our 5 years, add an additional 5 years 
to our statute of limitations simply because of DNA data 
banking.
    Another critical point that I have not seen mentioned 
before this bill is the fact that the evidence that will solve 
these rapes and murders is not sitting simply in the so-called 
evidence collection kits. Our task is not just taking these 
boxes off the shelves. We must look at everything from bed 
linens to victim and suspect clothing or abandoned property 
from a crime scene. We need to train investigators to identify 
and organize those items.
    We had a rapist last year operating in New York City. His 
name is Fred Monroe, recently released from State prison as a 
predicate felon. He committed two sexual assaults in New York 
City in one evening, the first in Queens and the second an hour 
later in Manhattan, the second time following a business woman, 
an out-of-State woman into her hotel room. He did not 
ejaculate, but he did put his mouth on her breast after 
subduing her at knifepoint. The hospital did not even bother to 
swab her breast, but at the laboratory, the serologist 
discovered a dried secretion on her bra, which was the saliva 
that had transferred there when she dressed after the assault. 
The rape evidence collection kit was negative, but the tiny 
amount of salivary secretion on her bra matched the DNA of 
convicted offender Fred Monrow.
    In addition, a brilliant police lieutenant in New York, 
Jimmy West, had kept his eye on an unsolved series of robberies 
in Greenwich Village. All of the victims were young women, and 
in each case, the robber had tried to follow the women inside 
their apartments. None were raped, no evidence collection kits. 
But West made his men pick up beer bottles and cigarette butts 
outside the crime scenes. The result, more matches to Fred 
Monroe and convictions on all the cases, including that of a 
young schoolteacher who had been beaten so badly she now has a 
metal plate in her head. A great investigator and a solid chain 
of evidence. This work requires thinking outside the box, 
frequently, beyond the normal scope of a crime scene run, and 
it requires the money to support that work.
    Another need for funding at the labs, many of the profiles 
developed two, three, 5 years ago were based on what was called 
a six-loci match, six points within the gene. That standard is 
now obsolete. The Brits have had two unrelated human beings 
matching at six loci, and so we have moved to more demanding 
matches, and Dr. Adams, I am sure, can speak to this, but we 
found that when we went to upload some of our old cases into 
CODIS, they were not accepted because they were done as six-
loci matches, and so all of the testing had to be redone, and 
that is true of many cases, many of these cases sitting around 
the country, even ones that have been developed.
    I feel it is essential to add, the brilliant work of the 
Office of the Chief Medical Examiner of New York City, its 
pathologists, and serologists, with all deserved respect to the 
NYPD, Fire Department, and EMS, the men and women of the New 
York City morgue have just done outstanding work surrounded by 
the millions of pieces of human remains of 9/11. They have 
worked around the clock to give answers and provide solace to 
the families of 9/11 victims. Throughout this time, they 
continued to handle the incoming load of rapes and homicides 
that we presented to them.
    The role of sexual assault forensic examiners, which you 
will hear more about, is the linchpin of what happens to a 
victim in the process. Physicians who work in emergency rooms 
will tell you they do not want to treat rape victims. Sadly but 
true, emergency room physicians will tell you they are there to 
save lives and rape victims are triaged after heart attacks, 
strokes, car accidents, gunshot wounds, and stabbing victims. 
Their injuries often when they present are no longer life 
threatening. They have survived the attack. The medical, 
emotional, and legal needs of the rape victim are often not 
felt to be the concern of emergency room physicians and yet 
they are the concern of the victim if the rapist is to be 
caught and convicted, that frequent four- to 6-hour stay in the 
hospital emergency room, with the internal exam, the head-to-
toe physical, evidence collection, including swabbing orifices, 
clipping nails, combing pubic hair, STD prophylaxis, and AIDS 
information. The reality is, the collection is not done 
properly if it is not complete, if it is not done by a forensic 
examiner.
    We have had cases in New York, for example, one of the 
cases I tried, the victim was examined by an oral surgeon who 
had never before seen a vaginal vault. He was the person on 
call and he was unable to testify as an expert at the trial. So 
no one suffers more in this regard than the victim.
    Statutes of limitations, many States have eliminated them. 
We have them in New York. One solution has been John Doe DNA 
indictments. They work very well in certain circumstances. They 
have helped us to toll the statute on someone like the East 
Side rapist, who attacked more than 18 women and is still at 
large. We would have lost those cases if not indicted. It is 
not an answer in every case. There are problems with doing John 
Doe DNA indictments. It is a very good technique under the 
circumstances, but will not work every time.
    Finally, these lead to the importance of the Federal 
resources and your commitment to these issues. These 
devastating crimes, as you know, Senator Biden, are a national 
problem and a tragedy for a variety of obvious reasons. Dr. 
Adams talked about the mobility. I want to give you three 
examples of data banking and its uses.
    We had recently an unsolved rape of a teenage girl in East 
Harlem. Last fall, our crime scene evidence data bank in 
Manhattan matched that case to two unsolved cases in New 
Jersey. Both of those cases occurred inside the Newark, New 
Jersey library. It is still unsolved, but this lead gives both 
teams of investigators new life for both cases. They have 
opened the files to each other and they have entirely new leads 
that we assume will bring us to a suspect. So it is a 
tremendous use for these data banks even when the assailant is 
unknown.
    The second example, the first phone call I received from 
the police on January 1 of 2001 was to tell me that a young 
British tourist had been raped and beaten in a Manhattan hotel 
room. She worked long and hard with detectives before returning 
home, but the case dead-ended. Later in the year, the DNA 
matched the unidentified offender in a rape/kidnapping which 
occurred in Las Vegas, Nevada. The story finally ended in the 
summer of last year when a man killed a security guard in a 
casino heist in Atlantic City, New Jersey. Federal agents 
followed the suspect to New York City, where he was killed in a 
shoot-out with the Feds in a crowded Manhattan hotel lobby. His 
DNA profile post-mortem solved the two rape cases and ended his 
cross-country crime spree. That security guard did not have to 
die.
    The last example is dramatically current and you have just 
referred to it. Three weeks ago, all our major papers carried 
stories of a 29-year-old Air Force employee who was arrested in 
Fort Collins, Colorado. He was charged there because of DNA 
matches to more than seven burglaries and rapes of young women 
who had been attacked in their homes, most of whom were 
Colorado State University students. Within days, DNA data banks 
also matched him to a series of unsolved cases in Philadelphia, 
the rampages you described of the Center City rapist. That 
involved at least five women who had been raped, finally a Penn 
student who was raped and murdered in her apartment. Police are 
now reopening the files of closed cases everywhere from New 
Hampshire to Texas to South Carolina to New Mexico, where the 
offender is known to have spent time.
    Serial rapists are rarely dormant. They do not retire and 
they do not quit. The best we can do is identify them, put them 
out of the business of destroying innocent lives, and see that 
they never walk among us again if they are, in fact, guilty of 
these devastating crimes. DNA technology and data banking is 
our only hope of achieving these goals.
    I thank you for letting me join you today and I hope you 
will call me back to work with you in the future.
    Chairman Biden. Linda, I guarantee we will call you back. 
One of the things that surprises me as to why we have so much 
trouble getting focus on this. You and I both know that career 
criminals make about 6 percent of the criminal population but 
commit half of the crimes. Why the heck would the same not be 
the case for rapists? I mean, our ability to have a gigantic 
impact is amazing. Career criminals, violent criminals, 
separate and apart, in addition, including rapists, commit the 
majority of the crimes committed. So if you just could find 
those 6 percent and did nothing else, you would reduce crime 
dramatically. This is a real prospect.
    [The prepared statement of Ms. Fairstein appears as a 
submission for the record.]
    Chairman Biden. Debra, welcome and thanks for all you do in 
Delaware.

  STATEMENT OF DEBRA S. HOLBROOK, NURSE AND CERTIFIED SEXUAL 
 ASSAULT NURSE EXAMINER, NANTICOKE MEMORIAL HOSPITAL, SEAFORD, 
                            DELAWARE

    Ms. Holbrook. Thank you. Good morning, Senator Biden and 
members of the committee. Thank you for asking me to be here 
today.
    Senator Biden, I want to start by thanking you for being 
first on the issues of violent crimes against women with VAWA 
from the start. Since 1994, you passed the law and you made it 
work. In Delaware and across this country, you authorized us to 
put in place these efforts that VAWA mandated, and because of 
your leadership, we are the model in the Nation now. DNA has 
become the final dot-to-dot, but we do so much more as forensic 
nurses, and please know that we owe you a debt of gratitude.
    Chairman Biden. We owe it to you.
    Ms. Holbrook. As a registered nurse and Sexual Assault 
Nurse Examiner, which I will call SANE from here on out, in the 
emergency department at Nanticoke Memorial Hospital in Seaford, 
Delaware, I coordinate a team of forensic nurses who are 
specially trained to care for sexual assault and violence 
victims of all ages. We are on call at all times, 24 hours a 
day, 365 days, to collect DNA, trace and photographic evidence, 
assure advocacy, and testify in court, to name just a few.
    Forensic nurses are the only specialty that answered health 
care's call to care for victims of sexual assault in this 
country. We provide a vital link in the Sexual Assault Response 
Team, or SORT, between health care and law enforcement.
    For years, nurses across the country have witnessed 
patients being re-victimized when they come to ERs, waiting for 
hours half-dressed in crowded public waiting areas, telling 
their stories countless times to people who did not need to 
know the statistics, and being traumatized by judgmental 
practitioners with no forensic training, such as most doctors 
in this country, that ruin vital DNA. Shockingly enough, this 
is still the level of care that eight out of ten victims--eight 
out of ten victims--will receive at any given time in the 
United States at this moment.
    Senator Biden and Delaware House Representative Tina Fallon 
in our State have been instrumental in helping our program at 
Nanticoke become a model in Delaware and throughout the 
country, but we share the same problems as the rest of the 
nation. Kits sit on shelves for years where perpetrators rape 
again and again. Running these kits and entering them in CODIS 
data banks would undoubtedly link perpetrators to many unsolved 
sex crimes, and we cannot give that assurance to our patients 
at any time when they come in to us.
    We are in need of gas chromatic mass spectrometer machines 
to be made available in every State to analyze specimens for 
victims of drug-facilitated rape, and we also need colposcope 
equipment that stores images and communicates to other teams 
for second opinion if they are lucky enough to have the 
colposcopes in their programs now.
    We need Federal mandates that victims of all ages be taken 
to trained International Association of Forensic Nursing 
trained and regulated SANE teams with a team approach and 
funding for salaries and education to keep these programs 
viable. Many of them get startup, but they do not stay open 
very long because they have no funding to sustain them. 
Forensics in this country is mandated for dead victims, but not 
required for those who we treat who are very, very much alive.
    The International Association of Forensic Nursing gives us 
a clearinghouse and international resource for SANEs all over 
the world. IAFN sets standards of care in nursing practice, 
provides training and education, and through its Forensic Nurse 
Certification Board, tests and certifies practicing SANEs for 
competencies.
    SANE teams across the country are in jeopardy of closing 
due to lack of both funding and cooperation from law 
enforcement. If they do not buy in, we do not get the patients 
many times. Many prosecutors do not understand how crucial we 
are in pulling together cases that yield convictions. Melanie 
Withers, who is the Deputy Attorney General in Georgetown, 
Delaware, said that ``SANE programs are the best thing I have 
seen to benefit victims since I have been a prosecutor.'' 
Delaware Attorney General Jane Brady stated, ``The expertise 
they possess enables them to treat victims with sensitivity and 
properly collect and document evidence for a criminal case.''
    I wish each of you could be on call with me as I come to 
the emergency room multiple times each week at 2 in the morning 
and hear the testimony such as Debbie gave today, and witness 
the bravery that is shown by my patients when they come to me 
for care, and hear the terror in their voices as they share the 
details of their crimes, especially the children, and know that 
we are the only program right now in our State that even treats 
children of these crimes.
    How do I tell a mother of a 3-year-old that because she 
initially took her child to an ER that did not have a SANE team 
or one that treated pediatric patients that it is too late to 
collect the forensic evidence that we need? Or a 20-year-old 
that was given Ecstasy without her knowledge that we cannot 
test for it in our State and there is no money left in the 
police budget to send it to a State who can? How do we tell 
countless rape victims that their kits are useless because 
untrained personnel allowed wet swabs to mold, or that the kits 
were not even bothered to be opened?
    This legislation has the power to forever change the 
scenario for the victims in our State and throughout this 
country. By mandating that the Sexual Assault Response Team 
approach be utilized with IAFN-trained SANEs providing the 
forensic health care, victims will never have to fear playing 
hit-or-miss with their judicial outcomes. Increased numbers of 
perpetrators will be convicted. States will have 
standardization in equipment, funding, and accountability, and 
I emphasize accountability, across this country, and properly 
collected DNA evidence will be analyzed, logged, and shared via 
national data banks.
    On behalf of the millions who are raped in this country 
annually, only of which a percentage report, I thank you for 
your consideration and hard work on this legislation.
    Chairman Biden. Thank you, Debra.
    [The prepared statement of Ms. Holbrook appears as a 
submission for the record.]
    Chairman Biden. Ms. Narveson, welcome.
    Ms. Narveson. Thank you, Chairman Biden.
    Chairman Biden. Thanks for the long trip. I think you have 
come the longest distance.

  STATEMENT OF SUSAN NARVESON, PRESIDENT, AMERICAN SOCIETY OF 
          CRIME LABORATORY DIRECTORS, PHOENIX, ARIZONA

    Ms. Narveson. And happily so, sir. Good afternoon, Chairman 
and members of the committee. I appreciate the opportunity to 
sit before you today and testify on behalf of the forensics 
community.
    My name is Susan Narveson. I am the Administrator of the 
Phoenix Police Department Laboratory Services Bureau and 
responsible for managing the operation of a full-service 
laboratory. In addition to my duties as Crime Laboratory 
Director, I am also the President of the American Society of 
Crime Laboratory Directors and I also serve as the Vice Chair 
of the Consortium of Forensic Science Organizations. I am 
honored to be present and to be asked to speak in regard to the 
Debbie Smith Act and its impact on crime laboratories 
nationwide.
    Crime laboratories and forensic scientists play a critical 
role in the criminal justice system by ensuring the proper 
collection, preservation, and scientific analysis of crime 
scene evidence. The successful investigation and prosecution of 
crimes is contingent on providing the quality forensic service 
in a timely manner. DNA analysis, however, is not the only 
service we provide. Crime laboratories also provide scientific 
analysis service in areas such as controlled substances, crime 
scene investigation, firearms, latent prints, question 
documents, serology, toxicology, and trace evidence. Each of 
these are part of a powerful arsenal of forensic tools that 
include DNA technology and are complementary to DNA technology.
    It is estimated that these additional service areas 
comprise more than 90 percent of the crime laboratories' annual 
caseload, and each of these cases carries with it a victim, 
just like these sexual assault case victims, who have 
expectations of having their cases worked and some kind of 
investigative leads developed and their cases solved.
    The American Society of Crime Laboratory Directors is a 
spokes-agency for crime laboratories and crime laboratory 
directors throughout the United States and abroad. ASCLD has 
taken an active role in ensuring the quality and integrity and 
credibility of forensic laboratories. By advocating for the 
needs and interests of forensic laboratories, developing 
guidelines for forensic science education and training, 
establishing an accreditation program for forensic science 
education programs, supporting the delivery of quality forensic 
service by mentoring laboratories seeking accreditation by the 
American Society of Crime Laboratory Directors/Laboratory 
Accreditation Board, and by partnering with other forensic 
science organizations through the Consortium of Forensic 
Science Organizations in order to speak with one voice on 
legislative issues of mutual importance.
    While ASCLD strongly supports any legislation aimed at 
providing resources to support the work of public crime 
laboratories and increase their capacity to process cases, it 
must be noted that we are severely hampered by a lack of 
funding and a significant backlog in areas of forensic science, 
not just DNA. As you know, DNA offers a powerful investigative 
and identification tool to solve many sexual assault cases and 
it needs to be applied to the maximum number of cases possible. 
However, this is also true of the other areas of forensic 
services provided by crime laboratories.
    Unfortunately, crime laboratories are facing great 
difficulties in their attempts to find the resources to analyze 
DNA and other cases. With national estimates for unanalyzed 
sexual assault kits ranging as high as 500,000 cases, it has 
certainly become an issue of critical importance that deserves 
further consideration and attention.
    ASCLD gratefully acknowledges the concern of this committee 
for the victims of sexual assault and appreciates the 
recognition that crime laboratories are facing overwhelming 
backlogs of sexual assault cases. It should be noted, however, 
that sexual assault cases comprise only five to 10 percent of 
the total backlog of cases confronting crime laboratory 
directors nationwide.
    In addition to sexual assault cases, DNA is also essential 
to the investigation and prosecution of other violent crimes 
and property crimes. Data from States that have the resources 
to conduct DNA analysis on biological evidence associated with 
drug cases, burglaries, and home invasions are finding a very 
high hit rate against CODIS, the national DNA data base of 
convicted offenders. In many cases, the likelihood of 
developing an investigative lead in a sexual assault case may 
be just as high by analyzing evidence from burglaries as by 
analyzing evidence from other sexual assault cases.
    DNA has been used to identify investigative leads in a wide 
variety of cases in addition to sexual assault. DNA profiles 
have been obtained from the grip of a handgun used in a 
homicide, from the seal of an envelope containing a threatening 
note associated with a series of multi-million-dollar arson 
fires, and even from gum, biological material, or latent prints 
left at burglary scenes.
    Although no data is currently available for the total 
number of backlogged cases for all forensic service areas, it 
is reasonable to expect that the numbers are staggering. ASCLD 
has partnered with the University of Illinois-Chicago on a 
grant proposal to conduct a 2002 Census of Public Crime 
Laboratories in order to determine the current status of 
forensic laboratories and their backlogs.
    Crime laboratories are faced with a crisis of enormous 
proportions, with insufficient personnel, facilities, 
equipment, training, and funding to meet the service needs and 
expectations of investigators, courts, and citizens. Forensic 
science technology has become an increasingly critical 
component of the successful investigation and prosecution of 
criminal cases. However, the timely disposition of felony cases 
has been adversely impacted by a lack of funding to support the 
staffing, equipment, training, and facility needs of forensic 
laboratories nationwide.
    Having said this, I would like to specifically address some 
of the provisions of the Debbie Smith Act. ASCLD strongly 
supports the timely analysis of all forensic cases. However, 
the provisions of the Debbie Smith Act that call for the 10-day 
turnaround time for the DNA analysis of sexual assault kits 
sets an unrealistic time requirement for completion of these 
cases.
    Taking into consideration the current DNA backlogs, the 
time requirements for collection and submission of the evidence 
to the laboratory, the DNA analysis requirements, and the 
quality assurance measures that must be conducted to ensure the 
integrity of the data, completion of DNA analysis of all sexual 
assault cases within 10 days of the incident is impossible. The 
capacity of laboratories to handle the increasing number of 
requests for service and backlogged cases must be dramatically 
increased before a noticeable decrease in the turnaround time 
will be realized. At that point, a more reasonable and 
realistic turnaround time would be 30 days.
    ASCLD strongly supports efforts to ensure the quality and 
integrity of evidence collected for forensic analysis purposes. 
ASCLD also supports the establishment of quality assurance 
standards by the relevant scientific community, such as the FBI 
or the American Society of Crime Laboratory Directors/
Laboratory Accreditation Board for the collection and 
processing of evidence.
    ASCLD also strongly supports efforts to improve the quality 
of training provided to individuals charged with the collection 
of evidence for forensic analysis purposes. ASCLD supports the 
development of these training programs by individuals with the 
requisite forensic experience in order to ensure that all 
critical parameters of the collection and preservation of 
evidence from sexual assault cases are addressed.
    ASCLD will continue to support Federal funding legislation 
that focuses on the necessity to increase the capacity of 
forensic laboratories to process all forensic cases, including 
sexual assaults, in a timely, accurate, and reliable manner. 
Forensic laboratories throughout the country need and 
appreciate your support of their efforts to apply the best 
science to the best evidence in every case.
    Mr. Chairman, I would like to thank you personally for the 
opportunity to provide my testimony in regard to this issue and 
also to thank you for the impact that you have made in the 
state of Arizona and to inform you that the information that 
Dr. Adams presented to you in regard to the national CODIS 
hits, those particular identifications were made through a 
collaborative effort that our laboratory had that was funded by 
Violence Against Women Act grant moneys, and for that, I thank 
you. We actually obtained a team, a cold case investigator, a 
victims' advocate, and a criminalist for working those cases. 
They screened over 600 cases and submitted almost 200 cases for 
DNA analysis, and I thank you for that and the victims of those 
crimes also thank you.
    I would ask that you continue to support this effort and to 
recognize that laboratories want to process these cases in a 
timely manner, that we really require additional staffing in 
order to be able to do that and would appreciate your support. 
Thank you so much for the opportunity to testify today.
    Chairman Biden. Thank you very much for making the trip.
    [The prepared statement of Ms. Narveson appears as a 
submission for the record.]
    Chairman Biden. Last but not least, Mr. Morgan.

 STATEMENT OF J. TOM MORGAN, DISTRICT ATTORNEY, STONE MOUNTAIN 
 JUDICIAL CIRCUIT, DEKALB COUNTY, GEORGIA AND VICE PRESIDENT, 
   NATIONAL DISTRICT ATTORNEYS ASSOCIATION, DECATUR, GEORGIA

    Mr. Morgan. Thank you, Mr. Chairman. I guess it is my job 
here to bat cleanup, and since all the witnesses have hit such 
home runs, it is going to be difficult. But if I could, I would 
like to share with you the perspective from the nation's 
prosecutors.
    My name is J. Tom Morgan. My first name is J. Tom. I grew 
up in the deep South where double names like Billy Bob and 
Mandy Sue are common and my parents named me J. Tom.
    Chairman Biden. That is what I know you as, then.
    Mr. Morgan. Thank you, sir. I am Vice President of the 
National District Attorneys Association and I am the elected 
District Attorney for DeKalb County, Georgia. DeKalb County is 
one of the metropolitan Atlanta counties. I represent a 
jurisdiction of about 600,000 people. I have been a 
prosecutor--I am a career prosecutor--for 18 years. Prior to 
being elected District Attorney in 1992, I headed up our Crimes 
Against Children Unit, where I prosecuted sexual assaults 
against children and child homicides. I have an office of 41 
assistant district attorneys. We only prosecute felony crimes. 
We prosecute about 7,000 felony crimes a year.
    Mr. Chairman, let me tell you, I am very excited. Mr. 
MacBride gave me this morning a synopsis of your proposed 
legislation. I look forward to this----
    Chairman Biden. You are saying that just because he was a 
Federal prosecutor. You prosecutors stick together, I know 
that.
    Mr. Morgan. As you know, we have a love/hate relationship 
with Federal prosecutors. We usually love to hate them because 
they have so many resources above what we do.
    Chairman Biden. That is what my son said. My son is a 
Federal prosecutor and I told him, I said, I do not want to 
hear about your conviction rate. I want to know about when you 
were a public defender, which I was, we have a little different 
assets available to us. But you know these Federal guys, but go 
ahead.
    [Laughter.]
    Mr. Morgan. Thank you, Senator. I do. This weekend, I am 
meeting with colleagues from around the country back here in 
D.C. and I am so looking forward to share your proposed 
legislation with them. Please know that you have an open 
invitation to come to the National District Attorneys 
Association any time. You have been a big supporter of us, a 
big supporter of legislation that is of such import to our 
nation's prosecutors, and on behalf of them, I want to thank 
you for that.
    The best way I can illustrate the three points I would like 
to make this afternoon is to tell you about a real case. In 
1992, a young woman was leaving the Atlanta/Fulton County 
Stadium after watching a Braves game. It was late at night. She 
was kidnapped and severely brutalized, sexually assaulted. She 
was unable to give us an identification of her attacker or even 
a good description. As I said, it was late at night and she was 
attacked from the back.
    This year, we were able to get a hit because a defendant 
was arrested on a drug case. Under Georgia law, all convicted 
felons are required to give a DNA sample. Because of that, we 
got a hit from a case that was 10 years old and is now solved 
and the perpetrator of a very violent crime will be brought to 
justice.
    I use this to illustrate three important points. The first 
is that DNA is the most powerful forensic tool in the last 100 
years. A hundred years ago, we started using fingerprinting. 
DNA is just another form of fingerprinting. I would submit that 
a book that is very exciting is The Blooding written by Joseph 
Wambaugh, which was the first DNA case in the world which took 
place in Great Britain. I had the pleasure of meeting the 
solicitor, or the barrister who prosecuted that case, and Great 
Britain is light years ahead of us in this country in DNA 
testing and requirements in DNA samples.
    The good news, Senator, is that in Georgia, we do not have 
a backlog. We are one of three States in this country, there is 
no backlog, and we test every offender who has been convicted 
of any type of felony. The reason is that 3 years ago, the 
elected district attorneys of Georgia got together with our 
crime lab and said the most important issue facing the criminal 
justice system today is testing in DNA cases, more so than 
additional prosecutors, more so than additional cops on the 
streets. We will make this our top priority, and our 
legislature funded the personnel necessary.
    The reason is that we have seen these cases now come to 
light. We have gotten 114 hits in the last 2 years. Of those 
114 hits, most of them have been sex offenses. But the 
important part is that in these sex offenses, most of them were 
not being tested for a sex offense. We know that offenders who 
commit property crimes many times escalate to sex offenses or 
that perpetrators who commit sex offenses then go back and 
commit property crimes.
    Chairman Biden. That is a really important point, and I see 
Ms. Narveson nodding her head.
    Mr. Morgan. And so our position is and the NDAA position is 
that not only all convicted felons should be tested, but every 
arrestee. You know, we already fingerprint everybody who is 
arrested and their fingerprints are sent up here to D.C. in 
AFIS. DNA is nothing more than a different type of 
fingerprinting. There is no constitutional prohibition. There 
is no legal prohibition against testing everyone. The only 
reason we do not is for lack of funds.
    The second point I would like to make, Senator, is what you 
have already addressed in your legislation and that is we must 
do away with the statute of limitations. Governor Barnes, the 
Governor of Georgia, on Friday signed a bill that abolishes 
statute of limitations for all violent crimes in Georgia where 
there has been newly discovered forensic evidence that can 
identify the perpetrator. We already had an exception to our 
statute of limitations. The Governor was just concerned. He did 
not want any cases overturned on appeal.
    Usually, the NDAA does not become involved in Federal 
issues, but you are absolutely right, the Feds need to do the 
exact same thing and abolish the statute of limitations, or 
John Doe warrants as Ms. Fairstein was saying. I think there 
are some legal problems there that Mr. MacBride and NDAA, we 
need to talk about some of the various ways. But the cleanest 
way to do it is to abolish the statute of limitations in these 
types of violent crimes.
    The third thing, Senator, is we do need funding for 
training of prosecutors and law enforcement personnel. Many of 
us went to law school because we did not do a great job in 
Chemistry 101, so we could not go to medical school.
    Chairman Biden. I can associate with that.
    [Laughter.]
    Mr. Morgan. I have not had a chemistry class, and I did not 
do well in the first one. We would encourage that our nation's 
Congress put in funds that would train us. If we do not 
understand the technology that we are putting up in court, we 
are not going to convince juries of the worth of this 
technology. I believe Ms. Fairstein will agree on this. We 
encourage that Congress do fund the training necessary. Once 
all these kits are put into place and they have been tested, we 
have got to have competent law enforcement personnel. That has 
been testified to, that they need to be trained on how to 
gather the evidence and our nation's prosecutors must be 
trained on how to put this evidence before a jury.
    I cannot thank you enough for this legislation. I think it 
will have the most powerful impact on our criminal justice 
system since the VAWA legislation.
    Chairman Biden. Thank you very much.
    [The prepared statement and attachment of Mr. Morgan 
appears as a submission for the record.]
    Chairman Biden. Some of you know me. I could keep you 
here--as Senator Clinton said, my colleagues sometimes, they do 
not make fun of me, but they remark on how passionate I am 
about this subject. Everybody always asks me, am I so 
passionate about it because my wife or my mother or anyone else 
was victimized, and the answer is, no, thank God, but--so I am 
going to try to keep the whole group only another 15 minutes, 
OK, so I do not trespass on your time too much.
    Mr. Morgan. Senator, I forgot to say, could I ask that the 
National District Attorneys Association policy on DNA be put in 
the record?
    Chairman Biden. It will be, without objection.
    I want to also suggest to you that I am going to submit a 
few questions to you in writing in order to keep the commitment 
of not keeping you beyond the time. I want to make a point 
here. The reason why the legislation that I have written is so 
broad, broad in the sense that it covers a lot of things beyond 
just dealing with the backlog, is that, as Linda knows, after 
long experience in trying to put together that Violence Against 
Women Act, Linda will tell you we thought we solved a lot of 
these problems in the Violence Against Women Act, and we did. 
For example, Debbie's program is funded by VAWA, your program 
was funded by VAWA, and so on. But it was not nearly enough.
    So I want to remind everybody of the component parts. One 
is the assessment of the backlog, which I may have to 
reconsider in light of the testimony. Maybe it is not worth the 
effort to try to assess the extent of the backlog.
    Two is funds for backlog elimination.
    Three is funds for offender sample testing. Three are funds 
available directly to State crime labs.
    Four is dealing with the national DNA data base, half-a-
billion dollars.
    Again, there is another part, support for a Sexual Assault 
Examiner programs----
    Ms. Holbrook. Nurse Examiner programs.
    Chairman Biden.--Nurse Examiner programs. Well, we may even 
train a few doctors before it is over.
    Ms. Holbrook. Well, there is an addendum that Mr. Schumer 
has which is a SAFE Grant Act that states doctors. These tests 
take an average of three to 4 hours for an excellent forensic 
exam.
    Chairman Biden. I understand, Debra. We just have to 
pretend doctors are important once in a while. That is a joke. 
That was a joke.
    [Laughter.]
    Chairman Biden. The other is training law enforcement on 
collection, training funds to direct local governments and 
universities, DNA standards, and statute of limitations.
    Now, the reason it is that broad is my experience has been, 
in fact, too long, but my experience has been that in every 
stage of this effort to deal with violence against women 
generically, we have had to train people. In the Violence 
Against Women Act, I remember you telling me, Linda, we had to 
train judges, and I remember sitting here thinking to myself, 
what do you mean, train judges? Well, we fund programs to train 
judges.
    We fund programs, as J. Tom knows, to train prosecutors to 
do simple little things. Stand between the victim and the 
accused when you are questioning the victim so the accused 
cannot be staring at the victim with a threatening stare. It is 
a thousand little things, a thousand little things that make a 
difference in protecting women, a thousand little things, and 
that leads to my first question, Debbie. Excuse me for calling 
you Debbie. Ms. Smith.
    Ms. Smith. Debbie is fine.
    Chairman Biden. If, in fact, you had known, if it were 
general knowledge when that God-awful rape took place and you 
walked back into your home, if you knew that there was an 
extensive system in the United States that was going to enable 
you, if you gave access to your body to determine what the DNA 
evidence was available, if you knew there was this extensive 
evidence that was connected to all 50 States and would lead the 
likelihood of catching the guy who did that to you, would you 
have been more or less reluctant to go along with what was 
obviously a difficult, invasive process?
    Ms. Smith. Much more, not just for my own protection but 
for other victims' protection, as well.
    Chairman Biden. As the prosecutors here will tell you, one 
of the reasons why victims are afraid to go forward is they are 
afraid they will never prove it. They are afraid it will never 
happen and they will be the ones.
    Remember, Linda, that young woman whose face got scarred, 
what was her----
    Ms. Fairstein. Marla Hanson.
    Chairman Biden. Yes, and I remember her testimony so 
chillingly. I said, ``What was the reaction of people?'' and 
she said, ``Well, all the women that I told it to blamed me. 
They said, well, why did you go there or what did you do? What 
were you wearing?'' I remember you educating me to that.
    The point here I want to drive home and home and home and 
home again, we can take care of two lives here. We can take 
care of the life of the woman who's already been victimized by 
putting it back together a little bit for her, and we may very 
well prevent another woman from being a victim. We do not 
emphasize the first piece enough, in my view.
    The second question I have, Linda, as you know, 
pharmacology has kept up with the bad side, the dark side of 
man, as well. One of the things you and I have talked about and 
I am sure J. Tom has dealt with a lot and Debra made reference 
to it, there are date rape drugs now that literally induce 
amnesia so that the woman knows these horrible things happened 
to her, but is not very useful on the stand because she cannot 
remember what color the room was, whether the person was 
wearing A, B, or C, and so on and so forth, and it has been 
crippling.
    This seems to me to be, ironically, more need it now, that 
is, access to be able to have all this DNA integrated in a way, 
even more important now as we are faced with these new threats 
to women, not just women, but particularly women. Would you 
agree with that?
    Ms. Fairstein. Oh, absolutely. This whole area, and I think 
Debra is the only one who brought it up, of drug-facilitated 
rapes is shocking in, again, its recidivist quality. We have 
had so many of these cases in New York and, of course, all 
across the country. Most hospitals do not have the facility to 
test for these drugs. The problems, because the victims 
frequently do not get themselves to medical care in prompt 
fashion because they have been drugged and then are hung over 
after the effects of the drug. The testing costs are 
extraordinary.
    We have had several convictions in the last couple of 
years, but they are extraordinarily hard to make and we rely on 
our friends at the FBI who have a great deal of expertise in 
this area and their lab to help us with the testing, but these 
victims are among the worst treated every step of the way 
because they come in not able to tell a story about what 
happened after they have involuntarily ingested whatever the 
substance is.
    So identifying those substances through testing, and again, 
unless you have got a SANE or SAFE examiner and somebody who 
knows what the symptoms are, what they are looking for, these 
are substances that get out of the bloodstream with great 
alacrity, unfortunately, and after 24 hours, you frequently 
cannot find traces of them. It is an enormous aspect of the 
problem for which funding pools are needed.
    Chairman Biden. Again, the human toll side. I will say this 
and then I will yield to my colleague so we can get you out of 
here at 1:30.
    The human toll here, the woman who has been raped knows 
what has happened to her, has the side effects, physical and 
psychological, is scarred forever and ever, ever and ever, 
according to the psychologists and psychiatrists who have 
testified before me, if, in fact, she is unable to articulate 
what happened to her with any degree of clarity because no one 
will believe her.
    I ask all the men in the audience, just think of how you 
felt as a kid or as a man when something happened to you and 
you told people. You told about the guy who took your wallet or 
the bully who got you in the schoolyard and nobody believed 
you. Nobody believed you. This is incredibly debilitating.
    Let me yield to my colleague from Washington.
    Senator Cantwell. Thank you, Mr. Chairman.
    Mr. Morgan, as the law enforcement personnel here on the 
panel, I am interested in your analysis of the resources 
allocated for checking of crime scene DNA eviderce and 
convicted felon samples in these various bills as far as a 
return on investment. It seems to me that it would be hard to 
think of a better investment of dollars to actually solve a 
crime. You could come up with a list of hiring more prosecutors 
or hiring more police officers or a variety of other things, 
but that probably wouldn't be as effective a use of resources. 
So what is your assessment of the return on investment of these 
dollars?
    Mr. Morgan. Madam Senator, you are exactly right. When our 
State prosecutors got together 3 years ago and said the most 
important expenditure of funds is not more prosecutors, not 
more cops on the streets, but to fund our lab so that we can 
get these crimes solved, if it protects another child from 
being sexually abused, another woman from being raped or 
another homicide, that is an investment, a wise investment of 
American dollars.
    Senator Cantwell. But it seems from the analysis that it is 
almost about closing the case in some instances because all the 
work has been done and all the information is there, correct?
    Mr. Morgan. That is exactly right, but we have got to have 
the resources to be able to close that case, and many times, 
Senator Cantwell, what we find in Georgia is that the person is 
arrested and convicted of a minor felony but has perpetrated 
these horrendous violent crimes before, and if we can get him 
on the minor felony, get him tested, we know if he gets out he 
will do it again. So if we can get him tested, get him 
convicted on these prior ones, we have saved lives and saved 
the devastation that Ms. Smith has testified to earlier.
    Senator Cantwell. In your testimony, you talk about that 
investment of resources specifically for training on DNA 
testing and the expertise that has to be behind the prosecutors 
on that. Could you elaborate on where that gap is?
    Mr. Morgan. Yes, ma'am, and Ms. Fairstein elaborated on 
that, as well. We see too often our law enforcement personnel 
on the local, State, and Federal level have not been trained on 
the adequate collection of these samples. And then, as I said, 
those of us who went to law school in the 1970's and 1980's, we 
are not prepared to put up this kind of technology before a 
jury unless we have expert training in this area. It is not 
something that I can bone up on the night before and then put 
up a DNA expert.
    Senator Cantwell. So do you think that we are losing cases 
because of that now?
    Mr. Morgan. Yes, ma'am, and I will admit that we have lost 
cases in my own office because we have not been able to 
convince the jury. Once we are educated, I think we can do a 
better job of educating jurors. There is still a reluctance of 
jurors to believe this evidence in our country and we have to 
be better prosecutors to educate the jurors here.
    Chairman Biden. Senator, Linda has prosecuted thousands of 
these cases and wanted to chime in here.
    Ms. Fairstein. I just wanted to add, another reason, as Mr. 
Morgan has mentioned, the science, we have to keep in mind that 
this science continues to evolve and change. It is changing. We 
bring experts from the FBI and from our serology lab more than 
four times a year in to our prosecutors to teach and train 
them. You cannot pick up, as we hand out at all these 
conferences, direct examination of a serologist and use the one 
from 6 months ago because we are talking about a different kind 
of DNA technology. We are talking about a different population 
genetics study and results. We are talking about statistics 
that are entirely different than they were a year ago.
    So the training is not only ongoing, it is sort of what Dr. 
Adams said about continuing with the old things but the new are 
coming in at a great rate. It will continue to evolve, and that 
is part of what is so exciting and revolutionary about it. 
Mitochondrial DNA, there are only a handful of States in which 
that has been accepted in evidence, and this now means hair, 
bone, things that have not had a cell nucleus before that we 
can deal with.
    So it is trying to keep current, and it is enormously 
expensive to do that. We have got 600 prosecutors in a DA's 
office like Manhattan, again as many in Brooklyn and other 
counties, and we have got to teach all of those people and an 
entire police force how to find this evidence with cutting-edge 
technology and then how to teach it to juries.
    I urge you to come to New York. Ours watch much more 
television than yours. They really believe in DNA.
    Senator Cantwell. Well, I think your point about 
exoneration, as well, that it can work both ways, and the----
    Ms. Fairstein. It must.
    Senator Cantwell [continuing]. The basis of the technology 
is that it is accurate and can prove either side of the 
equation, I think is probably something that we have to work 
on.
    I know, Mr. Chairman, you are trying to adjourn, but I have 
one last question for I do not care who on the panel----
    Chairman Biden. No, please, go ahead.
    Senator Cantwell [continuing]. Can address it, but it seems 
to me, just given the anecdotal information that we have about 
the results of matches in Debbie Smith's case and some of the 
others, I know in our situation with the I-5 rapist in 
Washington State, that it seems to me that we are going to find 
a very interesting statistical match once we test these 20,000 
DNA eviderce kits, so any estimates or guesstimates about what 
we might find as far as convictions or number of people out of 
those 20,000 kits?
    Mr. Morgan. As Senator Biden said earlier, there is a small 
population of criminals that commit most of the crimes and I 
think we will see over and over again, once we test these kits, 
that there are people in custody that have had prior 
convictions or at least prior arrests.
    Ms. Fairstein. We are getting back in New York City, among 
the almost 16,000 kits that were outsourced by the city a year 
and a half ago, they are coming back at the rate of about 500 
to 800 a month now and we get city-wide, in the five counties, 
more than 40 hits each time a load comes back. So I think the 
numbers are just going to be staggering. This is the population 
we want to get, small crimes and, of course, these most 
devastating sexual assaults and homicides, and the numbers--we 
are going to put a lot of people out of business if you give us 
the money to do it.
    Senator Cantwell. I think that is the point. I do not think 
that we are talking about--it does not sound like, from the 
anecdotal information, that we are going to end up seeing a one 
or 2 percent statistic here, and the fact that it is not people 
who are convicted and behind bars, it is people who have been 
convicted of crimes, are back out on the street because it was 
a minor offense, but obviously, their involvement in criminal 
activity is much greater than the small crime that they have 
committed, and that is why this is so critically important for 
which to get the resources.
    Mr. Morgan. That is a very key point, Senator.
    Ms. Narveson. I think there are some statistics out there 
that you can look to. Based on the experiences of laboratories 
that are involved in this, the hit rate can run anywhere from 
10 percent, which is a good number, all the way up to 48 
percent, and a lot of it is contingent on a data base of 
convicted felons reaching what I call critical mass, and also 
of being able to process the non-suspect cases and the other 
cases, such as burglaries, home invasions, and drug offenses.
    I think right now, the State of Virginia has a 48 percent 
hit rate because they have an all-felons statute and they are 
aggressively analyzing all of the evidence and have the 
resources and the personnel to do it.
    Senator Cantwell. We in Washington have passed that, and so 
we would encourage other States----
    Ms. Narveson. That is good.
    Senator Cantwell [continuing]. To do that, as well, and 
that is why we were successful.
    Again, I just want to thank everybody for being here, and 
Debbie, again, thank you for your testimony and your 
involvement. I think that you have all made clear to us that 
the nationalization of this issue really will lead to more 
women coming forward, and hopefully, passage of funding will 
lead to more convictions, so thank you very much.
    Chairman Biden. This will also, if we fund it and are not 
cheap about it, if we actually step up to the ball here, this 
will convict a lot of people and free a lot of people. I do not 
want to, not just because she is a Delawarean, but I do not 
want to undercut what Ms. Holbrook is talking about. We need 
trained personnel to know what to collect, how to collect it, 
and who to send it off to, and that is all part of this.
    I cannot thank you all enough. I warn you, as Linda knows 
from experience and Debbie knows, I may be back to you, ask you 
to come again, because this is just sort of the opening salvo 
here.
    Debbie, thank you so much for your testimony. It was 
riveting, compelling, and it is going to help change some 
attitudes.
    J. Tom, I would like very much to come and speak to your 
group, I have many times, because you have been a great ally in 
this effort.
    Ms. Narveson, we are going to try very hard to see to it we 
can get some leverage, some moneys for the labs. The reason I 
say that is I have found when the Federal Government steps in 
and begins to do this, it puts significant pressure on States 
to respond.
    Again, thank you all very, very much. This is an important 
hearing.
    I would like to include the statement of Senator Grassley, 
who was required to be on the floor of the Senate with the 
trade bill, in the record.
    [The prepared statement of Senator Grassley appears as a 
submission for the record.]
    Chairman Biden. The hearing is adjourned.
    [Submissions for the record follow.]
    [Additional information is being retained in the Committee 
files.]

[GRAPHIC] [TIFF OMITTED] T6042.001

[GRAPHIC] [TIFF OMITTED] T6042.002

[GRAPHIC] [TIFF OMITTED] T6042.003

[GRAPHIC] [TIFF OMITTED] T6042.004

[GRAPHIC] [TIFF OMITTED] T6042.005

[GRAPHIC] [TIFF OMITTED] T6042.006

[GRAPHIC] [TIFF OMITTED] T6042.007

[GRAPHIC] [TIFF OMITTED] T6042.008

[GRAPHIC] [TIFF OMITTED] T6042.009

[GRAPHIC] [TIFF OMITTED] T6042.010

[GRAPHIC] [TIFF OMITTED] T6042.011

[GRAPHIC] [TIFF OMITTED] T6042.012

[GRAPHIC] [TIFF OMITTED] T6042.013

[GRAPHIC] [TIFF OMITTED] T6042.014

[GRAPHIC] [TIFF OMITTED] T6042.015

[GRAPHIC] [TIFF OMITTED] T6042.016

[GRAPHIC] [TIFF OMITTED] T6042.017

[GRAPHIC] [TIFF OMITTED] T6042.018

[GRAPHIC] [TIFF OMITTED] T6042.019

[GRAPHIC] [TIFF OMITTED] T6042.020

[GRAPHIC] [TIFF OMITTED] T6042.021

[GRAPHIC] [TIFF OMITTED] T6042.022

[GRAPHIC] [TIFF OMITTED] T6042.023

[GRAPHIC] [TIFF OMITTED] T6042.024

[GRAPHIC] [TIFF OMITTED] T6042.025

[GRAPHIC] [TIFF OMITTED] T6042.026

[GRAPHIC] [TIFF OMITTED] T6042.027

[GRAPHIC] [TIFF OMITTED] T6042.028

[GRAPHIC] [TIFF OMITTED] T6042.029

[GRAPHIC] [TIFF OMITTED] T6042.030

[GRAPHIC] [TIFF OMITTED] T6042.031

[GRAPHIC] [TIFF OMITTED] T6042.032

[GRAPHIC] [TIFF OMITTED] T6042.033

[GRAPHIC] [TIFF OMITTED] T6042.034

[GRAPHIC] [TIFF OMITTED] T6042.035

[GRAPHIC] [TIFF OMITTED] T6042.036

[GRAPHIC] [TIFF OMITTED] T6042.037

[GRAPHIC] [TIFF OMITTED] T6042.038

[GRAPHIC] [TIFF OMITTED] T6042.039

[GRAPHIC] [TIFF OMITTED] T6042.040

[GRAPHIC] [TIFF OMITTED] T6042.041

[GRAPHIC] [TIFF OMITTED] T6042.042

[GRAPHIC] [TIFF OMITTED] T6042.043

[GRAPHIC] [TIFF OMITTED] T6042.044

[GRAPHIC] [TIFF OMITTED] T6042.045

[GRAPHIC] [TIFF OMITTED] T6042.046

[GRAPHIC] [TIFF OMITTED] T6042.047

[GRAPHIC] [TIFF OMITTED] T6042.048

[GRAPHIC] [TIFF OMITTED] T6042.049

[GRAPHIC] [TIFF OMITTED] T6042.050

[GRAPHIC] [TIFF OMITTED] T6042.051

[GRAPHIC] [TIFF OMITTED] T6042.052

[GRAPHIC] [TIFF OMITTED] T6042.053

[GRAPHIC] [TIFF OMITTED] T6042.054

[GRAPHIC] [TIFF OMITTED] T6042.055

[GRAPHIC] [TIFF OMITTED] T6042.056

[GRAPHIC] [TIFF OMITTED] T6042.057

[GRAPHIC] [TIFF OMITTED] T6042.058

[GRAPHIC] [TIFF OMITTED] T6042.059

[GRAPHIC] [TIFF OMITTED] T6042.060

[GRAPHIC] [TIFF OMITTED] T6042.061

[GRAPHIC] [TIFF OMITTED] T6042.062

[GRAPHIC] [TIFF OMITTED] T6042.063

[GRAPHIC] [TIFF OMITTED] T6042.064

[GRAPHIC] [TIFF OMITTED] T6042.065

[GRAPHIC] [TIFF OMITTED] T6042.066

[GRAPHIC] [TIFF OMITTED] T6042.067

[GRAPHIC] [TIFF OMITTED] T6042.068

[GRAPHIC] [TIFF OMITTED] T6042.069

[GRAPHIC] [TIFF OMITTED] T6042.070

[GRAPHIC] [TIFF OMITTED] T6042.071


</pre></body></html>
